<html>
<title> - TO CONSIDER POSSIBLE IMPEACHMENT OF UNITED STATES DISTRICT JUDGE G. THOMAS PORTEOUS, JR. (PART III)</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
  TO CONSIDER POSSIBLE IMPEACHMENT OF UNITED STATES DISTRICT JUDGE G. 
                    THOMAS PORTEOUS, JR. (PART III) 

=======================================================================

                                HEARING

                               BEFORE THE

                   TASK FORCE ON JUDICIAL IMPEACHMENT

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 10, 2009

                               __________

                           Serial No. 111-45

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

53-946 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 




























                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
MAXINE WATERS, California            DARRELL E. ISSA, California
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
ROBERT WEXLER, Florida               STEVE KING, Iowa
STEVE COHEN, Tennessee               TRENT FRANKS, Arizona
HENRY C. ``HANK'' JOHNSON, Jr.,      LOUIE GOHMERT, Texas
  Georgia                            JIM JORDAN, Ohio
PEDRO PIERLUISI, Puerto Rico         TED POE, Texas
MIKE QUIGLEY, Illinois               JASON CHAFFETZ, Utah
JUDY CHU, California                 TOM ROONEY, Florida
LUIS V. GUTIERREZ, Illinois          GREGG HARPER, Mississippi
TAMMY BALDWIN, Wisconsin
CHARLES A. GONZALEZ, Texas
ANTHONY D. WEINER, New York
ADAM B. SCHIFF, California
LINDA T. SANCHEZ, California
DEBBIE WASSERMAN SCHULTZ, Florida
DANIEL MAFFEI, New York

       Perry Apelbaum, Majority Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

                   Task Force on Judicial Impeachment

                  ADAM B. SCHIFF, California, Chairman

SHEILA JACKSON LEE, Texas            BOB GOODLATTE, Virginia
WILLIAM D. DELAHUNT, Massachusetts   F. JAMES SENSENBRENNER, Jr., 
STEVE COHEN, Tennessee               Wisconsin
HENRY C. ``HANK'' JOHNSON, Jr.,      DANIEL E. LUNGREN, California
  Georgia                            J. RANDY FORBES, Virginia
PEDRO PIERLUISI, Puerto Rico         LOUIE GOHMERT, Texas
CHARLES A. GONZALEZ, Texas




















                            C O N T E N T S

                              ----------                              

                           DECEMBER 10, 2009

                                                                   Page

                           OPENING STATEMENTS

The Honorable Adam B. Schiff, a Representative in Congress from 
  the State of California, and Chairman, Task Force on Judicial 
  Impeachment....................................................     1
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Task Force on 
  Judicial Impeachment...........................................     1

                               WITNESSES

Mr. Louis Marcotte, New Orleans, LA
  Oral Testimony.................................................    41
Ms. Lori Marcotte, New Orleans, LA
  Oral Testimony.................................................    55

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Exhibits of Alan Baron, Counsel, Task Force on Judicial 
  Impeachment, submitted by the Honorable Adam B. Schiff, a 
  Representative in Congress from the State of California, and 
  Chairman, Task Force on Judicial Impeachment...................    11


  TO CONSIDER POSSIBLE IMPEACHMENT OF UNITED STATES DISTRICT JUDGE G. 
                    THOMAS PORTEOUS, JR. (PART III)

                              ----------                              


                      THURSDAY, DECEMBER 10, 2009

                  House of Representatives,
                 Task Force on Judicial Impeachment
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Task Force met, pursuant to notice, at 10:38 a.m., in 
room 2141, Rayburn House Office Building, the Honorable Adam B. 
Schiff (Chairman of the Task Force) presiding.
    Present: Representatives Schiff, Jackson Lee, Cohen, 
Gonzalez, Goodlatte, Sensenbrenner, and Lungren.
    Staff Present: Alan Baron, Counsel; Harold Damelin, 
Counsel; Mark H. Dubester, Counsel; Jessica Klein, Staff 
Assistant; and Kirsten Konar, Counsel.
    Also Present: Martin Edward Regan, Jr., counsel for witness 
Louis Marcotte.
    Mr. Schiff. his hearing of the House Judiciary Task Force 
on Judicial Impeachment will now come to order.
    Without objection, the Chair will be authorized to declare 
a recess of the hearing. I will now recognize myself to conduct 
an opening statement.
    Today, the Task Force will continue its inquiry into 
whether United States District Court Judge Thomas Porteous 
should be impeached by the United States House of 
Representatives. Today's hearing will focus on allegations that 
Judge Porteous accepted things of value from Louis Marcotte and 
Lori Marcotte, the owners of a bail bonds company in Louisiana, 
in exchange for access and assistance in his official capacity 
as a judge, including setting aside of a conviction of a 
Marcotte employee.
    The Task Force counsel, Alan Baron, will again brief us to 
provide a general overview of the matter under consideration 
today. After his presentation, Task Force counsel will question 
the witnesses for an initial period, followed by Member 
questioning. Judge Porteous's counsel was again afforded the 
opportunity to question the witnesses but has opted not to 
question the witnesses today. Judge Porteous is present with us 
this morning.
    And I will now recognize my colleague, Mr. Goodlatte, the 
distinguished Ranking Member of the Task Force, for his opening 
remarks.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    This is the third in a series of hearings that the Task 
Force on Judicial Impeachment has held to examine the alleged 
misconduct of Federal District Judge Thomas Porteous. During 
this hearing, we will explore the nature of the relationship 
between Judge Porteous and Louis and Lori Marcotte in 
connection with their bail bonds business.
    The Task Force has been working with law enforcement, 
judicial officials, has conducted numerous interviews, taken 
depositions from key witnesses, and gathered evidence and 
transcripts from previous investigations. These efforts have 
uncovered a large amount of information, including new evidence 
that was not uncovered in previous investigations.
    It is alleged that Judge Porteous received extravagant 
lunches and trips from the Marcottes, as well as consistent 
repair and maintenance work on his vehicles, and other things 
of value. It is also alleged that Judge Porteous gave 
preferential treatment to the Marcottes by setting bonds at 
levels that financially benefited the Marcottes, by splitting 
bonds in a way that financially benefited the Marcottes, by 
expunging criminal records of individuals associated with and 
employees of the Marcottes, and by helping the Marcottes 
establish beneficial relationships with State court judges 
after Judge Porteous arrived on the Federal bench.
    Today we will further investigate these allegations. 
Specifically, we will hear from Louis and Lori Marcotte, the 
bail bondsmen who have firsthand knowledge of Judge Porteous's 
conduct during the time in question.
    It is again worth noting that Judge Porteous was extended 
an invitation to make a statement before the Task Force and 
respond to questions but has so far declined to do so. It is 
also worth noting that the Task Force has permitted Judge 
Porteous's counsel to ask questions of the witnesses today.
    If the evidence shows that wrongdoing occurred, then the 
Task Force will make the appropriate recommendations to the 
full Judiciary Committee and we will have more work to do. I 
look forward to hearing from the witnesses and examining the 
facts in an objective manner.
    Thank you, Mr. Chairman.
    Mr. Schiff. I thank the gentleman.
    Would any other Member of the Task Force like to make a 
statement at this time?
    We will now hear a brief introduction to the factual 
predicate from special impeachment counsel Alan Baron.
    Mr. Baron, please come to the table, and you may proceed.
    Mr. Baron. Thank you, Mr. Chairman.
    As the Members of the Task Force know, Judge Porteous was a 
State court judge in the 24th Judicial District of Jefferson 
Parish in Gretna, LA, beginning in 1984. In the late 1980's, 
while Judge Porteous was a State judge, Louis Marcotte began 
operating an entity known as Bail Bonds Unlimited--it will 
later be referred to as BBU--with his sister, Lori Marcotte. 
And the Marcottes operated in Jefferson Parish, where Judge 
Porteous sat as a State court judge. The relationship between 
Judge Porteous and the Marcottes spans over a decade and covers 
numerous acts.
    This overview is going to focus on five areas: first, the 
general discussion of the nature of the way the bail bond 
business was operated in the 24th Judicial District Court; 
second, to discuss the relationship between the Marcottes and 
Judge Porteous when he was a State judge; third, a specific 
focus on the events that occurred in the timeframe surrounding 
Judge Porteous's nomination for a Federal judgeship; fourth, 
the continued relationship between Judge Porteous and the 
Marcottes after he became a Federal judge; and, finally, the 
Department of Justice's criminal investigation of judicial 
corruption in the 24th Judicial District Court related to the 
setting of bonds.
    We will be reviewing evidence this morning of how the 
Marcottes, in working with various judges, including Judge 
Porteous, corrupted the bond-setting process in the 24th 
Judicial District.
    I am sure many of us may be familiar with the fact that if 
an individual is arrested, a judge may require that a bond be 
posted in order for the defendant to be released pending any 
further court proceedings. The defendant who is incarcerated 
would pay the bondsman--in this instance, the Marcottes--a 
premium, typically 10 percent of the bond set by a judge.
    Now, because the Marcottes' income was based on the amount 
of premiums they would collect, obviously they had a vital 
interest in how bonds were set. If the bond is set too low or 
if a defendant was released on no bond, the Marcottes don't 
make any money. If the bond is set too high and the defendant 
can't afford to pay the premium, the defendant stays in jail, 
and, again, they don't make any money. They only make money if 
the defendant can afford to pay them a premium.
    Here is how Lori Marcotte described it. She was asked what 
the consequences were if the bond were set too low or if the 
bond were set too high. Here is what she answered: ``It depends 
on how much money a person had to bail out. If they had little 
money, then having a low bond set would be advantageous to us. 
If they had plenty of money, then a higher bond would be set.'' 
So, the essence of what the Marcottes wanted, in order to 
maximize their revenue and profits, was for the judge to set 
bonds at the highest amount which a defendant could meet.
    Now, there are two particular aspects of bond setting in 
the 24th Judicial District Court that are important to 
understand the relationship between Judge Porteous and the 
Marcottes. First, in that courthouse, even though a magistrate 
was supposedly assigned to set bonds, the bondsman could go to 
any judge in the courthouse to set bonds and thereby bypass the 
magistrate. Second, a bondsman could go to a judge directly 
without counsel present, no prosecutor or defense attorney 
being present, and ask the judge to set a pond at a particular 
amount. So what this meant as a practical matter is that the 
Marcottes could approach Judge Porteous directly with requests 
that he set bonds at a particular amount for particular 
defendants.
    I would like to turn to the relationship between the 
Marcottes and Judge Porteous when he was a State court judge. 
What we will hear through testimony is that, in the late 1980's 
or early 1990's, the Marcottes developed a close relationship 
with Judge Porteous. They took him out to numerous lunches at 
high-end restaurants where they would spend hundreds of 
dollars. They would bring his secretary, Rhonda Danos, because 
she acted as the judge's gatekeeper and was involved in the 
administrative processes associated with setting bonds. They 
would bring some of their other employees so Judge Porteous 
would get to know them. These lunches occurred several times a 
month regularly over the relationship when he was a State 
judge.
    In addition to these regular lunches, the Marcottes paid 
for repairs and maintenance on Judge Porteous's cars, as well 
as his family cars, everything from putting gas in the cars, 
keeping them cleaned, installing car radios, buying and 
installing new tires, paying for other repairs on the 
transmission and engines.
    One of the Marcottes' employees, a Mr. Jeff Duhon, 
testified that, at Louis's instructions, he, quote, ``took care 
of three of his cars. I had his, his son's, and his wife's.'' 
And Duhon went on to describe his duties relative to Judge 
Porteous's cars as ``mostly keeping them maintained: brakes, 
tune-ups, air conditioning, anything that was wrong with his 
automobiles, his three automobiles.''
    The Marcottes, through their employees, also rebuilt a 
fence at Judge Porteous's house and did other home repairs. 
Again, this was done by Jeff Duhon. As described by Duhon in 
his Task Force deposition, he was instructed by Louis to go and 
replace Judge Porteous's fence, and, as he said, ``I replaced 
it.''
    They also took Judge Porteous to Vegas with some other 
attorneys. And, notably and significantly, to conceal this 
payment for Judge Porteous, they paid for the trip by giving 
his secretary, Rhonda Danos, cash. Louis Marcotte has 
specifically stated that his sister Lori, quote, ``brought 
Rhonda cash money to pay for the trip,'' and that the financial 
transaction was handled that way to hide the fact they were 
paying for the trip.
    The Marcottes also took the judge's secretary, Ms. Danos, 
to Las Vegas and provided her other entertainment, such as 
concert tickets. And they did this because she was Judge 
Porteous's gatekeeper and she, herself, handled administrative 
details when Judge Porteous would set bonds.
    And now I would like to turn to what Judge Porteous did for 
the Marcottes in return.
    First and foremost, he set bonds at their request, made 
himself available to set bonds at their request, day and night, 
weekday and weekend. Here is how Lori Marcotte described the 
frequency of their requests to Judge Porteous to set bonds: 
``When we first started to develop this relationship, it was 
just a little bit. But, you know, this spanned over a long 
time, so in the end it was a lot. It was an everyday thing in 
the courthouse. We would go to the courthouse to see him in his 
office, call him on his cell phone, call him at home, contact 
him through his secretary. If he wasn't in the office, she 
would find him for us, get him off the bench.''
    And when they went to see him, they brought numerous bonds, 
rarely just one at a time. And, in particular, as one part of 
the bond-setting process, Judge Porteous would engage in a 
practice--and, indeed, we will see that he invented this 
practice--that was called in the courthouse ``splitting 
bonds.'' If a defendant had a high bond set which a defendant 
couldn't meet, Judge Porteous would split the bond into two 
pieces: one portion backed by the bondsman, the surety, and a 
portion backed by property or other personal promise to pay.
    So, for example, if the bond were set at $100,000 and the 
defendant or the person arrested could not meet that, Judge 
Porteous would cut it into two. So let's say $20,000 had to be 
covered by a surety bond and $80,000 just the personal 
guarantee of the person's relative, even though that guarantee 
might not have been worth anything. But this permitted the 
person to get a bond, and the Marcottes, therefore, were able 
to charge a premium which they otherwise would not have been 
able to do.
    As a practical matter, this operated as a bond reduction, 
and it permitted the Marcottes to earn premiums from people in 
circumstances where otherwise the person would have remained in 
jail because they couldn't afford the premium. This practice of 
splitting bonds was good for the Marcottes, and it was helpful 
for them to have Judge Porteous to be associated.
    Indeed, Judge Porteous was identified by others as having 
come up with the idea of splitting bonds. One former State 
judge, former Judge Bodenheimer, testified that he understood 
that Judge Porteous was the one who came up with this idea of 
doing bond splitting. Similarly, Lori Marcotte testified, ``By 
Judge Porteous splitting and setting bonds for us, making it, 
like, the norm, created the practice of splitting bonds. He 
actually originated this practice of splitting bonds.''
    Judge Porteous also assisted the Marcottes in other ways. 
In 1992, at the Marcottes' request, Judge Porteous set aside 
the conviction of one of their employees, Jeff Duhon, who I 
mentioned earlier in connection with the car and fence repairs. 
And it is noteworthy, Judge Porteous was not even sentencing 
judge in that case, but nevertheless he set aside the 
conviction that had been imposed by a different judge.
    Judge Porteous left the State bench in 1994. In about 1999, 
the FBI opened an investigation into corruption in bond setting 
in the 24th Judicial District Court, focusing on the Marcottes' 
relationship with State judges and State law enforcement 
personnel.
    In August of 2001, an affidavit was created in support of 
wiretaps in that investigation. In that affidavit, it stated 
that, quote, ``The pattern of illegal activity has been 
occurring for at least 8 years--that is, back to 1993, 
beginning with judge number two.'' We know that ``judge number 
two'' was, in fact, Judge Porteous. We have been advised that 
by the people who put the affidavit together. And note: The 
pattern of illegal activity that they are talking about is 
precisely the pattern that I have just described that Judge 
Porteous engaged in with the Marcottes.
    Now I would like to focus on events in roughly 3-month 
period from August through October of '94 surrounding the 
background check of Judge Porteous in connection with his 
nomination to be a Federal judge.
    Judge Porteous was nominated to be a Federal judge on 
August 25th, 1994. Sometime around that date, Louis and Lori 
Marcotte approached Judge Porteous and asked him to set aside 
the conviction of another employee, Aubrey Wallace. As Lori 
Marcotte testified, she and her brother went to Judge 
Porteous's chamber and made that request.
    It should be noted, Wallace had been convicted of burglary 
in 1990 and a felony drug offense in 1991. He was then still on 
parole for the drug offense at that time. And, significantly, 
the sentence he had received in his burglary conviction, as 
originally imposed, did not permit it; you could not lawfully 
set it aside. That should be kept in mind, please.
    On October 6th, 1994, the Senate held Judge Porteous's 
confirmation hearing, and he was confirmed by the Senate on 
October 7th, 1994. Then, on October 14th, 1994, 1 week after 
being confirmed by the Senate, pending his swearing-in to be a 
Federal judge, Judge Porteous complied with the Marcottes' 
request and set aside Wallace's burglary conviction. Here is a 
copy of that order. This was 2 weeks prior to Judge Porteous 
being sworn in as a Federal judge.
    This was not the only thing that Judge Porteous did for 
Louis Marcotte just as he, Judge Porteous, was about to depart 
to the Federal bench. Around that time, Louis Marcotte realized 
his ability to have Judge Porteous set bonds for him was coming 
to an end. So he used Judge Porteous to, in Louis's words at 
his deposition, quote, ``open the floodgates,'' end quote, and 
have him sign as many bond orders as possible.
    After Louis Marcotte's staff deposition, having heard his 
description of what Judge Porteous did, Mr. Dubester of the 
Task Force staff initiated contacts with the clerk's office and 
the sheriff's office of the 24th Judicial District Court to see 
if records could be located that would support and illustrate 
Judge Porteous's efforts on behalf of the Marcottes in that 
narrow timeframe just before he left the bench.
    To my right here is a pile of forms. It is approximately 50 
instances where Judge Porteous set bonds for the Marcottes in 
September and October 1994, his last 2 months on the State 
bench. This is part of opening the floodgates. The 
investigation into this is ongoing. This is not all of them, 
there are more, but this gives you an indication.
    It includes several bonds after Judge Porteous was 
confirmed but before he was sworn in as a Federal judge. These, 
of course, corroborate Louis Marcotte's recollection of Judge 
Porteous's conduct, ``opening the floodgates,'' in the last few 
days of his State court tenure.
    I want to show you what these bond forms look like. There 
should be one up on the screen. This is a document the Task 
Force obtained from the clerk's office of the 24th Judicial 
District Court. It shows that Judge Porteous set bond for the 
defendant ``John W.'' in the amount of $160,000. Even though 
these are public documents, we decided that we would not use 
the full name of the person who is mentioned in the document 
for privacy concerns.
    The date of this is October 11, 1994, shortly after Judge 
Porteous's Senate confirmation but while he is still a State 
judge. Now, at the bottom, that is not Judge Porteous's 
signature. That is simply someone at the sheriff's office, at 
the jail, puts the judge's name at the bottom of the form just 
simply to identify the judge who phoned in the bond. It just 
means that he is setting the bond.
    Let me cover a couple of these quickly just for the record. 
I will list the name and the date so we can keep track of the 
forms that are being displayed.
    There is a form for Leonard B., also dated October 11, '94. 
Then Donald B., also dated October 11th, '94. And, finally, 
here is one for a defendant named Craig M., dated October 27, 
1994, the very day prior to Judge Porteous being sworn in as a 
Federal judge. So, up to the very end, Judge Porteous was 
setting what I suggest to you were corrupt bonds for the 
Marcottes.
    Judge Porteous was sworn in as a Federal judge on October 
28th, 1994. Remember, I told you earlier about the judge 
setting aside Wallace's conviction. Well, in March of '95, that 
hit the papers. Judge Porteous's order was reported in the New 
Orleans Times Picayune, and the article referred to the setting 
aside as illegal and that it occurred, quote, ``apparently 
after the FBI and Federal background checks were complete.''
    Now, even after Judge Porteous became a Federal judge, he 
continued to maintain a relationship with the Marcottes. Now, 
why would they want to do that? He couldn't set bonds for them 
anymore. But the Marcottes knew that it was very good to have 
him in their corner to assist them when the circumstances 
permitted. In effect, he continued to conspire with the 
Marcottes to help them in their corrupt bond business.
    One way they would use their relationship with Judge 
Porteous and take advantage of his prestige as a Federal judge 
was to help them form relationships with newly elected State 
judges of the 24th Judicial District Court. One State judge in 
particular who Judge Porteous helped the Marcottes with was 
Ronald Bodenheimer, who I previously mentioned became a State 
judge in 1999. And Members may recall from our first hearing 
Judge Bodenheimer was the one who quoted Judge Porteous as 
telling him that, after he became a judge, he would never have 
to pay for lunch again.
    Here is how Lori Marcotte explained what she and Louis 
asked Judge Porteous to do relative to Judge Bodenheimer. ``The 
same thing that Judge Porteous did with us with the other 
judges: to introduce us to him, to get close to him, just to 
establish trust, and to help us split bonds, to get us to help 
us split bonds.''
    In his deposition, Bodenheimer confirmed that Judge 
Porteous made favorable comments to him about the Marcottes, 
including comments in which Judge Porteous acknowledged he knew 
Bodenheimer didn't hold the Marcottes in high regard, but then 
Porteous would say, ``Well, they really weren't as bad people 
as I thought they were, and Louis was really a pretty good 
guy.'' And Bodenheimer further testified that the fact that 
Judge Porteous vouched for the Marcottes was significant in his 
willingness to form a relationship with them.
    And, in fact, the Marcottes did form a relationship with 
Judge Bodenheimer, virtually the same to the one that had 
previously existed between them and Judge Porteous. And, as we 
will ultimately learn, Judge Bodenheimer pleaded guilty to a 
corruption charge arising from his relationship with Louis 
Marcotte. We will go into some detail on that. You will see how 
much it parallels exactly what Judge Porteous was doing with 
the Marcottes.
    In 1999 into the early 2000's, the FBI commenced a criminal 
investigation it referred to as ``Wrinkled Robe,'' and they 
were focusing on corruption in connection with bond setting in 
the 24th Judicial District Court in Jefferson Parish. Now, you 
saw earlier an excerpt from the affidavit for wiretaps in that 
investigation. The Wrinkled Robe investigation focused on the 
Marcottes and their relationships with the State judges and the 
other law enforcement personnel.
    In March of 2002, the FBI had Louis Marcotte under 
surveillance when he had lunch with several judges. At that 
lunch at Emeril's in New Orleans, Louis Marcotte was trying to 
get to know a newly elected State judge named Joan Benge. Louis 
Marcotte particularly sought Judge Porteous's attendance at 
that lunch, because Judge Benge, like Judge Bodenheimer, had a 
high regard for Judge Porteous, and he hoped to leverage the 
prestige of Judge Porteous to enhance his own credibility.
    Here is a photograph from that lunch. What you see here is 
a surveillance photo that depicts Judge Porteous, wearing a 
tie, with Louis Marcotte and Judge Bodenheimer behind Louis 
Marcotte at the conclusion of that lunch. The other individual 
is an employee of Louis Marcotte's.
    Around March of 2003, information about Judge Porteous's 
prior relationship with the Marcottes was reported in the 
press. In one article, Mr. Duhon, who we have referred to 
earlier, is quoted as stating he repaired Judge Porteous's 
cars, did repairs on his house, and that Judge Porteous had set 
aside his conviction.
    Now, in April 2003--and this is really amazingly, extremely 
significant how closely what I am about to describe parallels 
Judge Porteous's conduct with the Marcottes--State Judge 
Bodenheimer pleaded guilty to Federal corruption charges, a 
mail fraud conspiracy charging that he conspired to deprive the 
citizens of Louisiana of his honest and faithful services as a 
judge handling bail bonds in criminal cases pending in the 24th 
Judicial District Court.
    What is particularly noteworthy is that the conduct that he 
pleaded guilty to was indistinguishable from the conduct that 
Judge Porteous had engaged in previously and, indeed, that 
Judge Porteous helped set up between the Marcottes and Judge 
Bodenheimer.
    As part of the plea process, the government and Bodenheimer 
signed a document in which they stipulated to the facts that 
supported the charge. Bodenheimer admitted that he regularly 
set, reduced, and split bonds in criminal cases at a level 
requested by the bail bonding company; he was available to the 
company on a 24-7 basis, and, in return, he received lunches, 
drinks, a trip to a casino, and home repairs.
    In March of 2004, Louis Marcotte and his sister Lori 
pleaded guilty to felony corruption charges. Louis pleaded 
guilty to racketeering conspiracy. And, notably, the conspiracy 
to which Louis Marcotte pleaded guilty was alleged to have 
started prior to 1991. The charges in that information thus 
cover the period of his relationship with Judge Porteous.
    Further, the charging language to which Louis pleaded 
guilty describes his relationship with Judge Porteous. The 
charging document refers to BBU--that is Bail Bonds, Unlimited, 
their company--and the conspiracy account alleges certain 
judges would make themselves available to BBU; quickly respond 
to the requests of BBU; and set, reduce, increase, and split 
bonds to maximize BBU's profits--behavior that describes 
exactly Judge Porteous's conduct as a State judge.
    Louis Marcotte received a sentence of 38 months. Even 
today, he remains on supervised release. Lori Marcotte received 
a sentence of home detention and has completed her sentence.
    Significantly, of all the judges who helped the Marcottes 
over the years, including Judge Bodenheimer and another judge 
named Green who were convicted and sentenced to prison, Judge 
Porteous was identified by both Louis and Lori Marcotte as the 
judge who did the most for them. Louis's testimony could not 
have been more clear:
    ``Of all the judges that have helped you, where would you 
rank Judge Porteous?''
    Answer: ``Number one.''
    ``You didn't even hesitate in that response?''
    ``No.''
    ``You are certain of that, is that right?''
    ``Yes.''
    Lori Marcotte, the sister who ran the company with Louis, 
testified similarly:
    ``Who was the single most important judge to the success of 
your company in the 24th Judicial District Court?''
    Answer: ``Tom Porteous.''
    ``Any question in your mind about that?''
    ``No.''
    Today, Louis and Lori Marcotte are here. They have both 
cooperated. They provided depositions, which will be part of 
the record, to supplement their testimony today. They are here 
pursuant to subpoena to describe their relationships with Judge 
Porteous.
    Thank you.
    Mr. Schiff. Mr. Baron, thank you.
    I have just one question, if you could, by way of 
background. You have described how bonds were set in a way to 
advantage the bail bond company, by looking at what the 
defendant could pay, making it not too high and not too low.
    Can you just tell the Task Force a little bit about how a 
judge is supposed to set a bond? In other words, what is the 
judge supposed to look at, what is the purpose of the bond, and 
how is a judge supposed to set a bond?
    Mr. Baron. Of course.
    Well, first and foremost, the judge or magistrate who is 
setting the bond shouldn't be on the take from the person who 
is asking him to set the bond. We can start with that.
    But beyond that, the role of the bail bond is to permit the 
release, where appropriate, of persons who have been arrested, 
consistent with public safety, and that the independent 
magistrate should determine an appropriate amount that will 
permit the person to be released, if it is appropriate, but 
will also secure the appearance of that person later on when 
they are required to show up at hearings and at trial.
    And that should be a neutral decision designed to 
accomplish that end and consistent with the public interest. In 
no way should that be corrupted by either having the bondsman 
dictate what the amount is or paying the judge to accept 
whatever it is the bondsman tells him would be the appropriate 
bond.
    In fact, it is our understanding that the Marcottes 
actually had informants in the jail who would tell them, based 
on their interaction with the person who had been arrested, 
what they thought this person could afford as a premium. There 
were sheriff's deputies who were actually also convicted in 
connection with this investigation.
    Mr. Schiff. Thank you, Mr. Baron.
    And, without objection, all the exhibits referenced in your 
presentation will be made part of the record.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                               __________

    Mr. Schiff. Our witnesses today will be Louis Marcotte and 
his sister, Lori Marcotte. They will testify together on one 
panel.
    Louis Marcotte was formerly the owner and president of Bail 
Bonds Unlimited, a company in the bail bonds business, which 
operated in the 24th Judicial District in Gretna, LA, where 
Judge Porteous sat as a State judge.
    In 2004, Mr. Marcotte pleaded guilty to conspiracy charges 
arising from certain of his actions in the operation of his 
business. He has been cooperative and is here pursuant to a 
subpoena.
    Lori Marcotte assisted her brother in the operation of Bail 
Bonds Unlimited. In 2004, she pleaded guilty to a Federal 
corruption offense in connection with certain conduct on her 
part in the course of operating the business. She has also been 
cooperative and is here pursuant to a subpoena.
    I will now swear the witnesses.
    Would you both please rise and raise your right hands?
    [Witnesses sworn.]
    Mr. Schiff. Thank you. You may both be seated.
    And, Mr. Dubester, you may now question the witnesses.
    And I am sorry, Counsel, could you introduce yourself for 
the record?
    Mr. Regan. May it please this honorable Committee, I am 
Martin Edward Regan, Jr., licensed attorney at law for Louis 
Marcotte.
    Mr. Schiff. Thank you, Counsel.
    Mr. Dubester. What I am going to do is I am going to be 
posing questions first to Mr. Marcotte and then to Ms. 
Marcotte, just so we know the order of things as we proceed.

          TESTIMONY OF LOUIS MARCOTTE, NEW ORLEANS, LA

    Mr. Dubester. Mr. Marcotte, please introduce yourself to 
the Members of the Committee.
    Mr. Louis Marcotte. I am Louis Marcotte.
    Mr. Dubester. Okay, there you go. And where were you born, 
Mr. Marcotte?
    Mr. Louis Marcotte. I was born on the west bank of 
Louisiana.
    Mr. Dubester. Did you spend your entire life in the New 
Orleans area?
    Mr. Louis Marcotte. Yes, I did.
    Mr. Dubester. And what is your education?
    Mr. Louis Marcotte. I graduated from West Jeff High School.
    Mr. Dubester. Okay. In the late 1980's, did you enter the 
bail bonds business?
    Mr. Louis Marcotte. I am sorry?
    Mr. Dubester. In the late 1980's, did you enter the bail 
bonds business?
    Mr. Louis Marcotte. Yes, I did.
    Mr. Dubester. Where was that?
    Mr. Louis Marcotte. That was on Derbigny Street in Gretna, 
Louisiana.
    Mr. Dubester. And what was the name of your company?
    Mr. Louis Marcotte. Bail Bonds Unlimited.
    Mr. Dubester. And what was your role in the company?
    Mr. Louis Marcotte. I was the president of that company for 
25 years.
    Mr. Dubester. Okay. And do you know the woman who is 
sitting at the other end of the table?
    Mr. Louis Marcotte. Yes, that is my sister, Lori Marcotte, 
vice president of that company.
    Mr. Dubester. Okay. And what role did you have, what role 
did she have?
    Mr. Louis Marcotte. Lori did a lot of retail in the bail 
office, in sales, and she also handled a lot of the accounting.
    Mr. Dubester. Okay. Did she know what was going on? Was she 
with you when you were doing things in the course of the 
business?
    Mr. Louis Marcotte. Yes, she was. She was my partner.
    Mr. Dubester. Okay. I want you to take at least 1 minute up 
front to describe the bail bonds business to the Members of the 
Committee and--or the Members of the Task Force. You can, sort 
of, start anywhere. And then I will fill in gaps if you leave 
any of them out.
    So just explain the bail bonds business and how your 
company made money.
    Mr. Louis Marcotte. A bail bondsman is no more than a State 
Farm agent. We are licensed through the Commission of 
Insurance. We carry a property and casualty license. And the 
insurance company supplies us with policies that we can post at 
the jail so we can get defendants out. It is not real money; it 
is just a policy. If the defendant doesn't show up in court, 
then the courts cash the policy.
    Mr. Dubester. Okay. And how did your company--and I am 
going to use the present tense--how do you make money in the 
bail bonds business?
    Mr. Louis Marcotte. The families would come in and bring 
us--if the bond was $10,000, the families would come in and 
bring us a thousand dollars of the $10,000. We would bring the 
policy over to the jail, and then we would earn the thousand 
dollars for posting a $10,000 policy at the jail.
    Mr. Dubester. Okay. Would you walk the Members through the 
process of how a bond amount would be actually set by a 
judicial officer in Gretna, Louisiana?
    Mr. Louis Marcotte. Well, they had a magistrate who would 
set the bonds twice a day. And what we would do is we would 
shop bonds and try to get the bond set before the magistrates 
set the bond, if it wasn't a favorable magistrate.
    Mr. Dubester. Okay. Did you have an interest in the amount 
that the bond was set at?
    Mr. Louis Marcotte. Yes, I did. The more money the people 
had, the higher the bond, the more money we made.
    Mr. Dubester. Okay. And typically, what percentage of the 
bond--or what was the premium that you would make compared to 
what the bond amount was?
    Mr. Louis Marcotte. Ten percent of the premium.
    Mr. Dubester. Okay. So how would you find out how much an 
individual could pay as part of a premium?
    Mr. Louis Marcotte. We would screen the family or the 
defendant to find out how much money they had. At some point, 
we would run credit reports to see if they had available credit 
on their credit cards. And that is how we would determine what 
we would get the bond set at.
    Mr. Dubester. How did you get this information from the 
defendant who was arrested or from the family?
    Mr. Louis Marcotte. Well, when the family would come in, 
they would sign an agreement. Whenever you take a credit 
agreement on someone, you have the right to run their credit 
report.
    Mr. Dubester. Did you interview the prisoners at the jail, 
too?
    Mr. Louis Marcotte. Yes, we did. The jail supplied a media 
board with all the names of everyone who was incarcerated. We 
would take a list of the people on the media board, and then we 
would request to see the defendant. After we saw the defendant, 
if he didn't have money on him, we would get the family's 
number and then we would call the family and say, ``Hey, come 
on down. Your son is in jail. Would you like to get him out?''
    Mr. Dubester. Okay. So, if you could determine, let's say, 
that a defendant who had been arrested could come up with 
$3,000, what would be your request, or what would be your ideal 
bond that would be set by a magistrate?
    Mr. Louis Marcotte. A $30,000 bond.
    Mr. Dubester. Suppose he could come up with $8,000, how 
much would you want the bond to be set at?
    Mr. Louis Marcotte. I am sorry, I didn't hear you.
    Mr. Dubester. I just said $8,000, what would you want it to 
be set at?
    Mr. Louis Marcotte. I would want the bond to bet set at--if 
he had $8,000?
    Mr. Dubester. Yes.
    Mr. Louis Marcotte. I wanted the bond to be set at $80,000.
    Mr. Dubester. So you want to just maximize----
    Mr. Louis Marcotte. I just want to maximize the profits of 
Bail Bonds Unlimited.
    Mr. Dubester. Okay. There you go. Now, you indicated there 
is a magistrate which is typically assigned to setting bonds, 
is that correct?
    Mr. Louis Marcotte. That is correct.
    Mr. Dubester. But then you used the phrase, you would 
``shop the bond around.'' What do you mean by that?
    Mr. Louis Marcotte. Well, we would get there early in the 
morning, you know, 5 o'clock. And if we found out the family 
had money to get the defendant out, if the magistrate wasn't 
favorable, we would start calling the judges at home, you know, 
real early before the magistrate got there. And then, if we 
couldn't get in touch with them, we would go shopping in the 
courthouse before the magistrate set the bond.
    Mr. Dubester. Was there a particular judge who, in the 
course of your business at Bail Bonds Unlimited, that you 
started to go to more than any other judge on the District 
Court in the 24th JDC?
    Mr. Louis Marcotte. Yes, that was Judge Porteous.
    Mr. Dubester. Okay. And over time, did you increasingly go 
to Judge Porteous to set bonds?
    Mr. Louis Marcotte. I am sorry?
    Mr. Dubester. Over time, did you increasingly go to Judge 
Porteous?
    Mr. Louis Marcotte. Oh, yes, I did.
    Mr. Dubester. Okay. What I am going to do is I am going to 
return a little bit to what Judge Porteous did for you in terms 
of setting bonds, but I want to go through how you developed a 
relationship with Judge Porteous. So that is what my next set 
of questions are going to involve.
    Mr. Louis Marcotte. Okay.
    Mr. Dubester. How is it that you went about establishing a 
relationship with Judge Porteous?
    Mr. Louis Marcotte. Well, I met Judge Porteous through 
another bail agent. At some point, that bail agent faded out, 
and then we became close with Judge Porteous after he faded 
out.
    Mr. Dubester. Okay. And what steps did you take to 
encourage a close relationship between yourself and Judge 
Porteous?
    Mr. Louis Marcotte. Well, what we did, we started, the word 
would be, ``grooming'' Rhonda, his secretary, and getting close 
with her first, and then pushing her to facilitate a 
relationship between her, my sister and I and the Judge.
    Mr. Dubester. What did you do to get close to the Judge in 
terms of providing him anything of value?
    Mr. Louis Marcotte. Well, we started taking him to lunch. 
That is how it started. First, we started taking Rhonda to 
lunch, and then we had Rhonda start inviting him to lunch. And 
then that is how we became--that is how we started getting very 
close with him.
    Mr. Dubester. And I want to talk a little bit about these 
lunches. Can you just give a sense of the frequency of the 
lunches?
    Mr. Louis Marcotte. I guess they were around once a week 
and sometimes twice a week.
    Mr. Dubester. Can you describe the restaurants?
    Mr. Louis Marcotte. The Beef Connection, Ruth's Chris, a 
place named Romairs, you know, restaurants near the courthouse. 
Sometimes we would cross the river, depending on how much time 
we had.
    Mr. Dubester. I think the Members might be familiar here 
with Ruth's Chris as a steakhouse. Are these other restaurants 
comparable to Ruth's Chris in the cost and the fare that they 
serve?
    Mr. Louis Marcotte. Yes. The Beef Connection was pretty 
close to the same cost.
    Mr. Dubester. And was it just you and Judge Porteous at 
these lunches?
    Mr. Louis Marcotte. No, it would be Rhonda, and it would be 
some of my staff, and it also would be other judges at some 
times.
    Mr. Dubester. And can you give a sense of what the bills 
for these meals amounted to?
    Mr. Louis Marcotte. They would run anywhere from $200 to 
$400 or $500.
    Mr. Dubester. And that is back in 1994 dollars. The meals 
would be more expensive today, correct?
    Mr. Louis Marcotte. I am sorry?
    Mr. Dubester. That was back in 1993, 1992. That was more 
than 15 years ago, right?
    Mr. Louis Marcotte. Yes.
    Mr. Dubester. Okay. Now, did you call him for lunch, or did 
he call you for lunch?
    Mr. Louis Marcotte. It started out with me calling him for 
lunch. And then, as we got closer and developed a relationship, 
he would call and then I would call.
    Mr. Dubester. Did you ever let him bring friends that he 
chose?
    Mr. Louis Marcotte. Yes, I did.
    Mr. Dubester. Let's just say----
    Mr. Louis Marcotte. He could have brought anyone he wanted. 
I wouldn't have had a problem with it.
    Mr. Dubester. Let's just say it is--I am going to say twice 
a month, to use a very conservative estimate, or let's just say 
three times a month for 3 years, so 100 lunches. Of the 100 
lunches that you went to with Judge Porteous at the restaurants 
and at the rates that you described, how many of those did 
Judge Porteous pay for?
    Mr. Louis Marcotte. He didn't pay for any.
    Mr. Dubester. Now, is there anything else that you did in 
terms of providing things of value to Judge Porteous?
    Mr. Louis Marcotte. Yes. I brought shrimp to his house. I 
fixed his fence after the storm blew it down. I fixed his cars. 
I fixed his son's cars. I hired his son, at some point, to do 
some contract work----
    Mr. Dubester. Let me talk about----
    Mr. Louis Marcotte [continuing]. As a court runner.
    Mr. Dubester. Let me talk about the cars for a second. What 
do you remember doing relative to Judge Porteous's cars and his 
family's cars?
    Mr. Louis Marcotte. Well, we did mechanical work on them.
    Mr. Dubester. How did the car repairs start, and what did 
they consist of over time?
    Mr. Louis Marcotte. Well, I am not sure of the exact time 
they started, but I am sure that it lasted, you know, 3, 4, 5 
years.
    Mr. Dubester. And the very first times that you did 
anything for Judge Porteous's cars, what did that consist of?
    Mr. Louis Marcotte. The first time? The first times I 
started fixing his cars?
    Mr. Dubester. Yes.
    Mr. Louis Marcotte. You know, first, I started washing it. 
And then, you know, after I would wash it, I would add a little 
gas to it. And then it escalated from there, you know. Then the 
mechanical work started, the tires, the radios in the cars, and 
then his son's cars, and transmissions and stuff like that.
    Mr. Dubester. You mentioned tires. Did you buy tires for 
Judge Porteous's cars?
    Mr. Louis Marcotte. Yes, I did.
    Mr. Dubester. And how many cars was that?
    Mr. Louis Marcotte. It was three or four cars.
    Mr. Dubester. Do you remember what Judge Porteous's 
specific personal car was?
    Mr. Louis Marcotte. It was a blue Cougar.
    Mr. Dubester. Okay. What about car radios. Did you do that 
in one car or more than one car?
    Mr. Louis Marcotte. I am sorry? It is not that I don't 
understand the question. I can't hear at some points.
    Mr. Dubester. I understand the acoustics here. The car 
radio, was that in one car or more than one car?
    Mr. Louis Marcotte. I believe it was just one car.
    Mr. Dubester. And you remember other repairs to the engines 
and the transmission and so forth, is that correct?
    Mr. Louis Marcotte. Yes, I do.
    Mr. Dubester. And who from your staff handled the repairs 
or took care of Judge Porteous's car?
    Mr. Louis Marcotte. Well, I never did want to leave my 
office, so I always would send Skeeter or my brother-in-law 
Jeff. And I am sure a few times I went, but, you know, mainly 
those two runners that worked in my office.
    Mr. Dubester. And is ``Skeeter'' the same person as Aubrey 
Wallace?
    Mr. Louis Marcotte. Yes.
    Mr. Dubester. And did you always volunteer to Judge 
Porteous, or did he make requests of you? In other words, how 
did you know that there was a car repair to be done?
    Mr. Louis Marcotte. Well, sometimes we would be at lunch 
and he would say, ``Well, you know, my car is not running 
well,'' and I would say, ``Okay, Judge, I will take care of 
that.'' And there was also requests from him, you know, asking 
me to do it. So it worked both ways.
    Mr. Dubester. What do you remember about the fence repair?
    Mr. Louis Marcotte. Another time we were at lunch and he 
mentioned, ``Well, look, my fence blew over in the storm.'' And 
I said, ``Well, you know, I got two guys that will take care of 
it for you. No problem.''
    Mr. Dubester. Those two were also----
    Mr. Louis Marcotte. Aubrey Wallace and Jeff Duhon.
    Mr. Dubester. Did they go and do that, to your knowledge?
    Mr. Louis Marcotte. I am sorry?
    Mr. Dubester. Did they do that?
    Mr. Louis Marcotte. Yes, they did.
    Mr. Dubester. And at some time, did you ever take Judge 
Porteous anywhere?
    Mr. Louis Marcotte. Well, I took him to lunch, and we also 
went to Las Vegas, I believe twice.
    Mr. Dubester. Okay. And do you remember a trip to Las Vegas 
that you described as including some attorneys?
    Mr. Louis Marcotte. Yes, I did.
    Mr. Dubester. And why did you include attorneys with you 
when you took Judge Porteous to Las Vegas?
    Mr. Louis Marcotte. Because in a community, for whatever 
reason, the bail bondsman, it just doesn't look good with a 
bail bondsman hanging out with judges. So what I did is I 
brought some attorneys in to make it look good.
    Mr. Dubester. Okay. And is it your testimony that you think 
there might have been a second trip to Las Vegas, as well?
    Mr. Louis Marcotte. Yes. Yes, sir.
    Mr. Dubester. And is there something that you remember as 
to why there might have been a second trip?
    Mr. Louis Marcotte. Because I remember we were standing by 
a slot machine, and his wife was asking him for some change to 
put--some dollars to put back in, coins, you know, to put back 
into the slot machine.
    Mr. Dubester. And it is your recollection--and you are not 
sure if that was the one trip that I first asked you about 
which included the lawyers--we will call it that trip--or 
whether or not there were two trips, is that correct?
    Mr. Louis Marcotte. I am almost positive it was two trips. 
Now, you have to remember, the bail bond convention is always 
in Las Vegas every year. So, I was in the bail bond business 25 
years; I have been to the convention 25 times. So, you know, I 
remember him being there twice, you know. I just don't--it was 
just a lot of conventions.
    Mr. Dubester. And on at least one trip, but maybe both 
trips, did you pay for Judge Porteous to go to Las Vegas?
    Mr. Louis Marcotte. Yes, I did.
    Mr. Dubester. And on one trip in particular, the first trip 
I have asked you about, do you recall how it was that the 
actual mechanics of funding Judge Porteous's trip was paid for 
by you?
    Mr. Louis Marcotte. Not all by me. Some of the lawyers 
pitched in, and we came up with cash. And I believe my sister 
gave Rhonda the money to disguise the payment, and then she 
wrote a check to the airlines and everything and paid for the 
trip.
    Mr. Dubester. Okay. But, in other words, you paid Rhonda in 
cash through your sister?
    Mr. Louis Marcotte. Right.
    Mr. Dubester. Okay. And on the one or two trips, do you 
remember paying for Judge Porteous's food and drink and 
entertainment on those trips, as well?
    Mr. Louis Marcotte. Yes, I did.
    Mr. Dubester. And do you remember whether or not--what did 
Judge Porteous do when he was in Las Vegas?
    Mr. Louis Marcotte. He gambled the whole time he was there.
    Mr. Dubester. Okay. I am going to now turn to----
    Mr. Louis Marcotte. See, I didn't gamble, so he never hung 
with me. He just hung out by the table the whole time.
    Mr. Dubester. I am going to ask you now some of the things 
that Judge Porteous did for you during this period of time.
    The real question, Mr. Marcotte, is, why did you do all of 
these things for Judge Porteous? What value were you getting by 
virtue of the fact that you were providing him this stream of 
value?
    Mr. Louis Marcotte. I wanted service, I wanted access, and 
I wanted to make money.
    Mr. Dubester. And how was the fact that Judge Porteous was 
willing to set bonds at your request, how did that help you 
maximize profits?
    Mr. Louis Marcotte. Because if you set bonds higher than 
what the defendant can make, then I would have to take credit. 
If you set the bond at exactly what I need, then I could 
maximize the profits of my company.
    Mr. Dubester. As a general matter, was he receptive to your 
request as to the exact amount that you wanted the bonds to be 
set at?
    Mr. Louis Marcotte. Yes.
    Mr. Dubester. The term ``split bonds'' has been used. Just 
briefly describe what is meant by a split bond and the 
significance of the practice of splitting bonds for your 
company.
    Mr. Louis Marcotte. What we would do with a split bond--
just say the bond is $100,000. The defendant only had $3,000. 
Well, the judges liked setting high bonds, because if it came 
out in the newspaper that, you know, something happened and the 
guy did something wrong, then it would look like he got out on 
a high bond. But theoretically speaking, he got out on a 30, 
not a 100.
    Mr. Dubester. In other words, the $100,000 bond would be 
split into two pieces, right?
    Mr. Louis Marcotte. Two pieces: 70 personal surety, which 
most of the time the personal surety wasn't worth anything, and 
the only portion of the bond that was worth something was the 
commercial part of the bond that was executed by the bail agent 
and backed by the insurance company.
    Mr. Dubester. Okay. And were there some judges who would 
refuse to split bonds?
    Mr. Louis Marcotte. I am sorry?
    Mr. Dubester. Some judges wouldn't split bonds, right?
    Mr. Louis Marcotte. Yes, there was.
    Mr. Dubester. Did Judge Porteous--what was Judge Porteous's 
willingness or practice in splitting bonds?
    Mr. Louis Marcotte. He was ready, willing, and able to do 
it for us.
    Mr. Dubester. Okay. And was that helpful to you, in terms 
of you being able to maximize your profits?
    Mr. Louis Marcotte. Yes, it was.
    Mr. Dubester. In addition to setting bonds, did you ever 
make a request of Judge Porteous relative to Jeff Duhon?
    Mr. Louis Marcotte. Yes, I did.
    Mr. Dubester. What do you remember about that?
    Mr. Louis Marcotte. Well, Jeff worked in the bail office. 
To become a bail bondsman and take premiums and negotiate 
bonds, you have to have a license with the commissioner of 
insurance. I had him in my office for a short period of time, 
and then they changed the law and you had to be a licensed 
agent to work inside of a bail agency. So, at that point, I 
needed to get him licensed.
    So I went to Porteous. I said, ``Judge, this is my brother-
in-law. Would you expunge his license so he could become a bail 
agent?''
    Mr. Dubester. You said ``expunge his license.'' You mean he 
had a felony conviction, did he not?
    Mr. Louis Marcotte. Set aside the conviction.
    Mr. Dubester. And so you went to Judge Porteous?
    Mr. Louis Marcotte. Yes, sir.
    Mr. Dubester. And did he do that?
    Mr. Louis Marcotte. Yes, he did.
    Mr. Dubester. Was there anything unique or particularly 
unusual about Judge Porteous setting aside your brother-in-law 
Jeff's felony conviction?
    Mr. Louis Marcotte. Well, that case was allotted to another 
judge, meaning the judge who sentenced him in that case was a 
different judge than Porteous. So what Porteous did was he took 
the conviction out of another section and brought it in his 
section and then expunged the record.
    Mr. Dubester. Okay. I want to talk to you about the time 
period surrounding Judge Porteous's background check. Do you 
recall being interviewed by the FBI at that time?
    Mr. Louis Marcotte. Yes, I have. I was interviewed by the 
FBI.
    Mr. Dubester. Okay. And when you were being interviewed by 
the FBI, what was your goal in that interview?
    Mr. Louis Marcotte. To lie to the FBI agents so I could 
protect Porteous and make sure he got where he wanted to go.
    Mr. Dubester. And why was it that you were willing to tell 
the FBI information which would help Judge Porteous?
    Mr. Louis Marcotte. Because I know he really wanted to be a 
Federal judge and, you know, I wanted to see him get confirmed.
    Mr. Dubester. Okay. And had he been good to you over the 
years?
    Mr. Louis Marcotte. He was really good to me.
    Mr. Dubester. Okay.
    Now, I want to show you a couple things that the FBI write-
up of your interview quotes you as saying. If the FBI write-up 
reflects that you told the FBI that, to your knowledge, Judge 
Porteous had no financial problems, would that have been true?
    Mr. Louis Marcotte. Well, if you would have looked at his 
surroundings and the way that he was living his life, you know, 
he was gambling, he was drinking, and if you looked at the 
cars, you could see that he had three or four cars for his self 
and his kids and his family, and they were really in poor 
condition.
    Mr. Dubester. They were in poor condition?
    Mr. Louis Marcotte. Yes, sir.
    Mr. Dubester. So did you have a sense of what Judge 
Porteous's actual financial condition was?
    Mr. Louis Marcotte. Well, just by looking at it from the 
outside, he never did sit there and say, ``Hey, look, you know, 
I am negative $2,000 in my checking account.'' But by looking 
at the surroundings and the problems with the drinking and the 
cars and asking people for repairs and stuff like that, you 
know, one would think that, hey, this guy is struggling. And by 
looking at the cars, you could see that he was struggling.
    Mr. Dubester. Okay. And when you say one would know or one 
would think, in fact, did you have your own personal opinion as 
to what his financial situation was?
    Mr. Louis Marcotte. I knew he was struggling, because his 
cars were in deplorable condition.
    Mr. Dubester. Okay. And I think the FBI write-up quotes you 
as saying that the candidate, meaning Judge Porteous, will have 
a beer or two at lunch but you have never seen him drunk. Was 
that a true statement?
    Mr. Louis Marcotte. No, I lied to those FBI agents. Again, 
I really wanted to protect him, you know.
    Mr. Dubester. Well, why wasn't that a true statement? 
Putting aside your own motivation at this point, just explain 
why that wasn't a true statement.
    Mr. Louis Marcotte. Because I was at lunch with him, and, 
you know, he would have five, six, you know, Absolut and tonic 
or water. I am not exactly sure what the drink was, but it was 
vodka.
    Mr. Dubester. Okay. And then on the third thing that the 
report says is that you were not aware of anything in the 
candidate's background that might be the basis of influence, 
pressure, coercion, or compromise or that would impact 
negatively on the candidate's character, reputation, judgment, 
or discretion.
    Was that a true statement, Mr. Marcotte?
    Mr. Louis Marcotte. No, I was lying again. I really wanted 
to protect him.
    Mr. Dubester. Okay. And why was that not a true statement?
    Mr. Louis Marcotte. Because of all of his actions with the 
gambling, the drinking----
    Mr. Dubester. Well, let me ask you very specifically, were 
you aware of your own relationship with Judge Porteous at the 
time you made----
    Mr. Louis Marcotte. Yes. And my relationship was, you know, 
it was----
    Mr. Dubester. Just answer the question. Were you aware of 
your own relationship with him?
    Mr. Louis Marcotte. Yes, I was.
    Mr. Dubester. And, in fact, did that relationship consist 
of you having given him things as a State judge?
    Mr. Louis Marcotte. Yes, it did.
    Mr. Dubester. Did you actually, in your own mind, feel you 
had leverage over Judge Porteous based on your knowledge of the 
fact that he had taken things from you while he was a State 
judge?
    Mr. Louis Marcotte. Yes, I did, because I believed--well, I 
didn't believe--I asked him for things, and he asked me for 
things.
    Mr. Dubester. Okay. And what did you personally know about 
your own relationship with him which gave you a sense that you 
personally had leverage or influence over Judge Porteous?
    Mr. Louis Marcotte. By his wants and his needs and by my 
wants and my needs.
    Mr. Dubester. Okay. At the time you gave this interview in 
August of '94, did you feel that you had had basically a secret 
understanding or a secret relationship with Judge Porteous?
    Mr. Louis Marcotte. Yes, I did.
    Mr. Dubester. And in the most general sense, was that 
relationship one that you were giving him things and he was 
taking favorable actions toward you?
    Mr. Louis Marcotte. Yes, sir.
    Mr. Dubester. When you made these statements to the FBI, in 
your mind, was that just another act that you were taking as 
part of your secret relationship with Judge Porteous?
    Mr. Louis Marcotte. Yes.
    Mr. Dubester. And do you know how the FBI got your name as 
a reference?
    Mr. Louis Marcotte. I believe Judge Porteous told them to 
come interview me. I don't know if they asked who to go 
interview. I don't know how that worked. But they did come to 
see me, and then I knew that he sent them to me.
    Mr. Dubester. Okay. Did you think that Judge Porteous had 
an understanding that you were going to make statements which 
were going to protect him?
    Mr. Louis Marcotte. Yes.
    Mr. Dubester. And do you think Judge Porteous would have 
ever given the FBI your name if he believed you would tell the 
FBI that he had gambling problems, drinking problems, financial 
problems, and had taken things of value from you?
    Mr. Louis Marcotte. No, he would never tell them that, and 
neither would I.
    Mr. Dubester. Did Judge Porteous ever do or say anything to 
indicate to you he was concerned what you might tell the FBI?
    Mr. Louis Marcotte. No. He just said that the FBI is going 
to be coming to interview you.
    Mr. Dubester. And did you tell Judge Porteous what the FBI 
interview consisted of after they interviewed you?
    Mr. Louis Marcotte. Yes, I told him everything that they 
asked about.
    Mr. Dubester. When you spoke to the FBI, were you saying 
what you believed Judge Porteous would have wanted you to say?
    Mr. Louis Marcotte. Yes.
    Mr. Dubester. At the time Judge Porteous was leaving the 
Federal bench, did you make any requests of Judge Porteous 
relative to your employee Aubrey Wallace, who you previously 
mentioned?
    Mr. Louis Marcotte. Yes. I wanted him--Aubrey worked for me 
a long time, and he was the guy who fixed the cars--I paid to 
fix the cars. But he was a runner. He put the gas in, he put 
the tires on and everything. And Aubrey was another guy in my 
organization that was in there without a license. And the law 
had changed, just like I said before, and I really wanted him 
to get licensed. The only way he could get licensed is if they 
set aside Aubrey's conviction.
    Mr. Dubester. Okay. And did you approach Judge Porteous to 
ask him to do that?
    Mr. Louis Marcotte. Yes, I did.
    Mr. Dubester. And what was Judge Porteous's response when 
you made that request of him?
    Mr. Louis Marcotte. He waffled a little bit because he 
wasn't confirmed at the time, but he told me--I saw him a few 
times, I pushed him and said, you know, ``Judge, you know, I 
really need to get this done.'' He said, ``After my 
confirmation, I will do it.''
    Mr. Dubester. And, in fact, did he do it?
    Mr. Louis Marcotte. Yes, he did.
    Mr. Dubester. And, in your mind, do you have an opinion as 
to why Judge Porteous set aside Wallace's conviction?
    Mr. Louis Marcotte. Because all of the stuff that I have 
done for him in the past.
    Mr. Dubester. Was there any question in your mind that he 
set aside the conviction as a favor to you?
    Mr. Louis Marcotte. Yes, he did it for me.
    Mr. Dubester. Okay. And also at about the time Judge 
Porteous was leaving for the Federal bench, did you make any 
request of him relative to him setting bonds?
    Mr. Louis Marcotte. Yes. I figured he was on his way out 
and let's open the floodgates and let me try to make as much 
money as I can before he left.
    Mr. Dubester. And did Judge Porteous do that?
    Mr. Louis Marcotte. He did.
    Mr. Dubester. And I am not going to show you the bond 
forms, but you have reviewed some bond forms in preparation for 
your testimony today. And, in fact, were there bond forms that 
he signed that you saw which reflect his signing bonds for you 
on his way out?
    Mr. Louis Marcotte. Yes, they do.
    Mr. Dubester. Okay. Did Judge Porteous ultimately take the 
Federal bench in October 1994?
    Mr. Louis Marcotte. Yes, he did.
    Mr. Dubester. And when he was a Federal judge, did you 
continue a relationship with him?
    Mr. Louis Marcotte. Yes, I did.
    Mr. Dubester. And could he set bonds for you anymore?
    Mr. Louis Marcotte. No, he couldn't set bonds.
    Mr. Dubester. Why did you want to continue a relationship 
with him?
    Mr. Louis Marcotte. Because, number one, he was a Federal 
judge. Right there, that brings strength to the table whenever 
he sits down with me.
    Mr. Dubester. And----
    Mr. Louis Marcotte. It would make people respect me 
because, you know, I am sitting with a Federal judge.
    Mr. Dubester. And you are a bail bondsman with a high 
school education, frankly, is that right?
    Mr. Louis Marcotte. Yes, sir.
    Mr. Dubester. So it is good for you to be sitting with a 
Federal judge if you are meeting with somebody else, right?
    Mr. Louis Marcotte. Yes, sir.
    Mr. Dubester. And were there people who you deliberately 
wanted to have Judge Porteous at the table with when you had a 
lunch or a meeting with?
    Mr. Louis Marcotte. Yes, I wanted to try to get as many 
people to the table with Porteous when I was there, because, 
again, he brought strength to the table. And I also wanted him 
to groom the people that I was at the table with. I wanted 
those guys to do bonds, as well.
    Mr. Dubester. Okay. And did you feel that Judge Porteous 
was particularly influential because he came from the 24th JDC 
and was now a Federal judge?
    Mr. Louis Marcotte. Yes.
    Mr. Dubester. And plus, what was Judge Porteous's 
reputation at the 24th JDC?
    Mr. Louis Marcotte. Yes, he brought strength when he at was 
the 24th, and he brought strength to the table when he was a 
Federal judge. So, I mean----
    Mr. Dubester. Now, I want to ask you in particular about 
whether or not you made any request of Judge Porteous relative 
to Judge Bodenheimer after Judge Bodenheimer was elected.
    Mr. Louis Marcotte. Yes. I wanted--again, you know, any 
judge that I got to the table--and I always say ``get to the 
table'' because it was always a luncheon, and I always thought 
a luncheon was the best time to, you know, develop a 
relationship----
    Mr. Dubester. Listen to the question. Did you make a 
request of Judge Porteous relative to Judge Bodenheimer?
    Mr. Louis Marcotte. Yes. I asked Porteous to start grooming 
him.
    Mr. Dubester. Okay. Well, in other words, I just want to be 
clear here. It wasn't as though you would just have a random 
lunch and bring Judge Porteous. Did you make a request 
specifically of Judge Porteous, in any way, shape, or form, to 
help you with Judge Bodenheimer?
    Mr. Louis Marcotte. Yes, sir.
    Mr. Dubester. What do you remember asking? Use your 
vocabulary. Pretend you are saying--just say what it is that 
you said to Judge Porteous.
    Mr. Louis Marcotte. Judge, tell this guy I am a good guy. 
Tell him that commercial bonds is the best thing for the 
criminal justice system and that--ask him would he take--ask 
him would he take your spot when--because you left now and I 
needed somebody to step in to Porteous's shoes so I can get the 
same things done that I got done when Porteous was there.
    Mr. Dubester. Do you know whether or not Judge Porteous 
spoke to Judge Bodenheimer?
    Mr. Louis Marcotte. Yes, he did.
    Mr. Dubester. And after he spoke to Judge Bodenheimer, did 
your relationship with Judge Bodenheimer change as a result?
    Mr. Louis Marcotte. Yes, it did. Bodenheimer became the 
Porteous of the 24th District Court.
    Mr. Dubester. And, in 2002, was there a newly elected 
judge, Joan Benge?
    Mr. Louis Marcotte. Yes, there was.
    Mr. Dubester. And did you try to get to know Judge Benge 
better?
    Mr. Louis Marcotte. Yes, I did.
    Mr. Dubester. And was there a lunch at Emeril's restaurant 
in New Orleans that you caused to take place which included 
Judge Benge and others?
    Mr. Louis Marcotte. Yes, there was.
    Mr. Dubester. And did you try to get any judges to that 
lunch for the same purpose that you just described?
    Mr. Louis Marcotte. Yes. The judges that I got to that 
lunch--I tried to get--I wanted Porteous to groom them as well 
so they would be accessible to me in the 24th.
    Mr. Dubester. Just asking, did you want to get judges to 
that lunch?
    Mr. Louis Marcotte. Yes, I did.
    Mr. Dubester. And what judges did you ask go to that lunch?
    Mr. Louis Marcotte. I asked Judge Benge and Bodenheimer and 
Judge Benge's secretary.
    Mr. Dubester. Did you want to get Judge Porteous to that 
lunch?
    Mr. Louis Marcotte. Yes.
    Mr. Dubester. And why did you want Judge Porteous? He was a 
Federal judge then. He hadn't been on the State court bench in 
8 years. Why was it good to have Judge Porteous?
    Mr. Louis Marcotte. Because if the other judges saw me with 
a Federal judge, they would feel comfortable about my request 
as far as bonds.
    Mr. Dubester. Now, you have seen a brief video of that 
lunch, is that correct?
    Mr. Louis Marcotte. Yes, I have.
    Mr. Dubester. I just want to--at that point I take it you 
did not know that you were under an FBI surveillance?
    Mr. Louis Marcotte. No, I did not.
    Mr. Dubester. I want to show you about a 30-second video. 
And from looking at it, I just want you to state nothing more 
than the following: Just tell the Members of the panel who is 
coming out of the restaurant as you see them appear on the 
screen.
    Mr. Louis Marcotte. There is Judge Porteous. That is 
Sadie--that is Judge Benge's secretary. There is Bodenheimer. 
Me. And that is Judge Benge.
    Mr. Dubester. And does that video fairly depict the fact, 
the exiting of the group from the restaurant on the day that 
you had Judge Porteous come?
    Mr. Louis Marcotte. To that lunch?
    Mr. Dubester. Yes.
    And was it important to you to get Judge Porteous there 
when you were trying to get to know Judge Benge better?
    Mr. Louis Marcotte. It was important to get Judge Porteous 
at any lunch, especially after--while he was on the 24th 
judicial bench and, really, more important to get him there 
after he was a Federal judge.
    Mr. Dubester. By the way, at any point in time whatsoever, 
did you ever hear Judge Porteous warning any other State judge 
anything along the lines: Stay away from Louis Marcotte. He 
will give you things, he will compromise you, and he will 
pressure you, and you will lose your independence. Stay away 
from Louis Marcotte. He is corrupt.
    Did Judge Porteous ever tell anybody that?
    Mr. Louis Marcotte. Not that I know of.
    Mr. Dubester. Instead, he vouched for you. Is that correct?
    Mr. Louis Marcotte. He vouched for me.
    Mr. Dubester. In 2004, did you plead guilty?
    Mr. Louis Marcotte. Yes, I did.
    Mr. Dubester. And did you fully cooperate?
    Mr. Louis Marcotte. Yes, I did.
    Mr. Dubester. And were you sentenced to prison?
    Mr. Louis Marcotte. Yes, sir.
    Mr. Dubester. And how much time did you serve?
    Mr. Louis Marcotte. I got--I was sentenced to 37 months. I 
spent 18 months because I got the drug program.
    Mr. Dubester. And you are aware that both Bodenheimer and 
another judge, Alan Green, were also convicted of corruption 
offenses relating to their taking things from you. Is that 
correct?
    Mr. Louis Marcotte. Yes, they did.
    Mr. Dubester. And as well as some sheriffs' deputies. Is 
that correct?
    Mr. Louis Marcotte. Yes.
    Mr. Dubester. And of all the judges who you gave things to, 
which one judge above all the judges was the most important to 
you in the growth of your business?
    Mr. Louis Marcotte. Three years, Judge Porteous was.
    Mr. Dubester. Okay. And what judge was the most influential 
with the other judges?
    Mr. Louis Marcotte. I am sorry?
    Mr. Dubester. Which judge was the single most influential 
judge?
    Mr. Louis Marcotte. Judge Porteous.
    Mr. Dubester. And when you were giving things to Judge 
Porteous, did you know it was wrong?
    Mr. Louis Marcotte. When I was giving things to him?
    Mr. Dubester. Did you know it was wrong?
    Mr. Louis Marcotte. Yes, I knew it was wrong.
    Mr. Dubester. Did Judge Porteous ever show the slightest 
hesitation in accepting things from you?
    Mr. Louis Marcotte. No, he did not.
    Mr. Dubester. Okay.
                               __________

          TESTIMONY OF LORI MARCOTTE, NEW ORLEANS, LA

    Mr. Dubester. Ms. Marcotte, thank you for waiting so 
patiently; and, as I think I indicated to you yesterday, I only 
have some loose ends and gaps that I think you have knowledge 
of and this will not be lengthy. We appreciate that you came 
all the way from New Orleans as a witness, and I wanted to 
cover just a few brief matters with you.
    As to Rhonda Danos, did you form a relationship with 
Rhonda?
    Ms. Lori Marcotte. Yes. Yes, I did.
    Mr. Dubester. And did you ever take--did you ever go to Las 
Vegas with Rhonda?
    Ms. Lori Marcotte. Yes, I did.
    Mr. Dubester. How many times do you think you took Rhonda 
Danos to Las Vegas?
    Ms. Lori Marcotte. Four or five times.
    Mr. Dubester. And were some of those times when Judge 
Porteous was a State judge and sometimes a Federal judge?
    Ms. Lori Marcotte. That is correct.
    Mr. Dubester. Do you remember any of the hotels you stayed 
at?
    Ms. Lori Marcotte. I'm sorry. I couldn't hear you.
    Mr. Dubester. Do you remember any of the hotels?
    Ms. Lori Marcotte. The Luxor Hotel. The Mirage Hotel. The 
Golden Nugget. We had a dinner at a bunch of places, too, and 
the convention and a few places.
    Mr. Dubester. Did you ever provide her other entertainment?
    Ms. Lori Marcotte. Yes.
    Mr. Dubester. Can you give some examples of that?
    Ms. Lori Marcotte. We saw Siegfried & Roy, the Blue Man. 
Whatever shows were in Las Vegas every night.
    Mr. Dubester. Did you ever take her to the Rolling Stones, 
pay for Rolling Stones ticket?
    Ms. Lori Marcotte. Yes. That was in New Orleans.
    Mr. Dubester. And the very first time that you took Rhonda 
Danos to Las Vegas, did you know her well?
    Ms. Lori Marcotte. Not really.
    Mr. Dubester. Okay. Well, how did it come about that you 
took Judge Porteous's secretary, a woman who you did not know 
very well, to Las Vegas? How did that occur?
    Ms. Lori Marcotte. Well, we would go to Judge Porteous's 
office to get bonds set or split, and I started speaking to her 
at the desk and asked her to come to Las Vegas. We were having 
a bail bond convention, and we asked her to come along.
    Mr. Dubester. Was it important to you to have a good 
relationship with Rhonda Danos?
    Ms. Lori Marcotte. Of course.
    Mr. Dubester. Why was that?
    Ms. Lori Marcotte. Because she is the secretary of the 
judge, and she has access to him. And she does things to set 
bonds like call the jail, to call the bond in once it is set or 
split. To have access to the judge.
    Mr. Dubester. Did you ever explicitly thank her or link 
anything that you gave her with the fact that she had been so 
good to you?
    Ms. Lori Marcotte. Yes, all the time.
    Mr. Dubester. And did Judge Porteous know you were giving 
her things, too?
    Ms. Lori Marcotte. Yes.
    Mr. Dubester. To your recollection, did Louis go with Judge 
Porteous to Las Vegas once or twice?
    Ms. Lori Marcotte. Yes.
    Mr. Dubester. Which was it, once or twice, to your 
recollection?
    Ms. Lori Marcotte. I remember twice. But one time is kind 
of vague, but one time is very clear.
    Mr. Dubester. And do you remember--you heard Louis testify 
that you gave cash back from at least one Las Vegas trip to 
Rhonda. Do you recall him testifying to that a few minutes ago?
    Ms. Lori Marcotte. Yes, I do.
    Mr. Dubester. And what do you remember about giving cash to 
Rhonda?
    Ms. Lori Marcotte. I remember standing in her office, with 
another attorney, handing her the money.
    Mr. Dubester. I want to ask about one other. I have asked 
your brother about meeting with Judge Benge and meeting with--
and Judge Bodenheimer. I want to ask you a question about 
another judge who you all met with when Judge Porteous was a 
State judge. Did you ever try to form a relationship with a 
Justice of the Peace Kerner from Lafitte?
    Ms. Lori Marcotte. Yes.
    Mr. Dubester. Tell the Members about what that consisted 
of.
    Ms. Lori Marcotte. Well, we were trying to get other 
judges, as many judges as we could, to set bonds. And we 
understood about the Justice of the Peace's ability to set 
bonds, and we started to get other Justices of the Peace to set 
bonds. And we wanted Judge Kerner on, Justice of the Peace, to 
set bonds for us, too. Judge Porteous's secretary is from 
Lafitte, and that is where Judge Kerner is the Justice of the 
Peace, in Lafitte.
    Mr. Dubester. So did you go to lunch and try to----
    Ms. Lori Marcotte. Yes.
    Mr. Dubester [continuing]. Work your magic on Judge--
Justice of the Peace Kerner?
    Ms. Lori Marcotte. Yes. We had Rhonda set up a lunch and 
had Judge Porteous attend. And we went to the Beef Connection 
and we showed up. My brother had the law book in his hand, and 
we had instructed Judge Porteous to explain about the power of 
the Justice of the Peace being able to set bonds. And he did.
    Mr. Dubester. Okay. And ultimately was Justice of the Peace 
Kerner very receptive to your attempts to have him set bonds 
for you?
    Ms. Lori Marcotte. No, he was not.
    Mr. Dubester. And just to set the stage, let me get this 
right. You are going to lunch with this person you have never 
met, and Judge Porteous is there, and you go to lunch and your 
brother Louis takes out a law book and starts talking to 
Justice of the Peace Kerner. Is that what happened?
    Ms. Lori Marcotte. Pretty much. Yeah.
    Mr. Dubester. And Judge Porteous made that happen, correct?
    Ms. Lori Marcotte. Yes.
    Mr. Dubester. And ultimately it didn't take, though, did 
it?
    Ms. Lori Marcotte. No.
    Mr. Dubester. Okay. And I want to--I have asked your 
brother about Judge Bodenheimer. I want to ask about another 
judge who pleaded guilty, Judge Green. Do you recall Judge 
Porteous having any role in your and your brother's ability to 
form a relationship with Judge Green?
    Ms. Lori Marcotte. Yes.
    Mr. Dubester. And what do you remember about that?
    Ms. Lori Marcotte. I remember setting up a lunch with some 
other judges and some attorneys and Judge Porteous and Rhonda, 
and we had--they had invited or we had invited Judge Green who 
was newly elected. And, I mean, it is pretty clear because that 
was really the first lunch where Judge Porteous had explained 
the concept of splitting bonds. That was kind of like the stage 
for everything else that would happen.
    Mr. Dubester. And you remember specifically Judge Porteous 
being present at a lunch?
    Ms. Lori Marcotte. Yes.
    Mr. Dubester. And helping you form a relationship with 
Judge Green?
    Ms. Lori Marcotte. Yes. That lunch is very vivid.
    Mr. Dubester. Okay.
    That is all I have of these two witnesses. I appreciate the 
Chairman's indulgence of the time that I have taken.
                               __________

    Mr. Schiff. Thank you, counsel.
    We are going to break. We have a series of votes coming up, 
and this will also give you a chance to grab some lunch. Why 
don't we resume--it is almost noon. Why don't we resume at 1. 
So we will be in recess until 1.
    [Recess.]
    Mr. Schiff. This hearing of the Task Force will now come to 
order.
    Mr. Marcotte, Ms. Marcotte, I am going to ask a few 
questions and then invite my colleagues to do so. If at any 
time you can't hear me, because I know these mics kind of come 
in and out, stop me and let me know. I want to just follow up 
on one of my colleague's questions earlier, just to clarify.
    Ms. Marcotte, the lunch with Justice of the Peace Kerner, 
was that at a time when Judge Porteous was on the State court 
or on the Federal bench?
    Ms. Lori Marcotte. That was the Federal bench.
    Mr. Schiff. Thank you.
    Mr. Baron in his introduction earlier this morning talked 
about an extraordinary number of bail applications that were 
brought to Judge Porteous right before he left the State bench. 
And I think--I can't remember what the phrase was that was 
used, but, Mr. Marcotte, was there an effort made to sort of 
get them all in while he was still on the bench, on the State 
bench, and prior to his leaving for the Federal bench?
    Mr. Louis Marcotte. Well, we wanted to try to make as much 
money as we could while he was on his way out. You know. Am I 
answering the question, or am I not hearing correct?
    Mr. Schiff. No, you are hearing. Did you for that reason 
bring as many bail applications to him in those last couple of 
months as you possibly could?
    Mr. Louis Marcotte. Yes, I did.
    Mr. Schiff. And would you say that you brought more bail 
applications in those last 2 months than in prior months? Or 
was it just you wanted to make sure that everything you could 
possibly bring, brought to him?
    Mr. Louis Marcotte. Well, I wanted to make sure that I 
could make every nickel before he left in those months.
    Now, prior to that, you know, there was a ton of bail 
applications as well, but my words were ``Well, let's wear him 
out.''
    Mr. Schiff. And who did you use those words with in 
discussion?
    Mr. Louis Marcotte. Everyone who saw him on bonds, 
including me, my sister, and other people that worked in my 
office at the time.
    Mr. Schiff. So meaning you wanted to wear him out by 
bringing as much as you possibly could do and get them done, 
make as much as you could before he left for the Federal bench?
    Mr. Louis Marcotte. Yes, sir.
    Mr. Schiff. Did he ever raise any objection with your 
calling him on the weekends or in the evenings or early in the 
morning before the Magistrate showed up?
    Mr. Louis Marcotte. I am sure at times he was tired of us 
calling him and aggravated, but he still did them.
    Mr. Schiff. You talked in your earlier testimony about the 
judge setting aside convictions of two of your employees, one 
of whom was also your brother-in-law. Correct?
    Mr. Louis Marcotte. Yes, sir.
    Mr. Schiff. And these are folks that not only worked for 
you but that were involved in doing favors for the judge?
    Mr. Louis Marcotte. Yes, sir. Both of them. Only in a 
running capacity. I was the one that done for the judge in the 
financial capacity. Those guys were just runners for me.
    Mr. Schiff. So when the judge would say he had a car that 
needed a repair or a fence that needed a repair, he would tell 
you that. You would then ask either Mr. Wallace or Mr. Duhon, 
was it?
    Mr. Louis Marcotte. Yes, sir. That is what I did.
    Mr. Schiff. And they would go and they would do the task 
for the judge?
    Mr. Louis Marcotte. Yes, sir. And I am sure, you know, 
being around Judge Porteous, they became--you know, they 
weren't with him at lunch like me all of the times. I have 
taken them sometimes with me, but they developed a relationship 
on their own with him by, you know, picking up the keys and 
bringing them back and fixing the cars and--you know. But it 
wasn't the relationship that I had with him.
    Mr. Schiff. But just so that we are clear, Judge Porteous 
knew both of these men, also?
    Mr. Louis Marcotte. Yes, sir, he did.
    Mr. Schiff. Knew them because they would pick up keys when 
he needed cars fixed. So he was aware that both of these people 
that he later set aside convictions for had been doing favors 
for him through you?
    Mr. Louis Marcotte. Yes, sir.
    Mr. Schiff. And Mr. Wallace was the one who fixed the 
fence?
    Mr. Louis Marcotte. Mr. Wallace and Mr. Duhon.
    Mr. Schiff. And Judge Porteous was aware that those two 
people were involved in fixing his fence?
    Mr. Louis Marcotte. Yes, sir, they were--he was.
    Mr. Schiff. During the court proceedings, if you know, when 
the convictions were set aside for those two employees, do you 
know whether Judge Porteous ever disclosed to the prosecutors 
or any of the other court personnel that the people he was 
setting aside convictions for had done him personal favors or 
given him gifts or gratuities of that nature?
    Mr. Louis Marcotte. I don't know that. I don't know if he 
told prosecutors of any kind that that is what he--you know, 
they were doing favors. That is why he wanted to do it. I mean, 
he is a smart guy. I don't think he would disclose that to 
prosecutors.
    Mr. Schiff. Were you present at either of the court 
proceedings where the convictions were set aside?
    Mr. Louis Marcotte. No, I was not. Now, I don't know if the 
court--I don't know if they were set aside in the courtroom or 
in the chambers. I don't know that.
    Mr. Schiff. You mentioned that, with respect to Mr. 
Wallace, that Judge Porteous expressed a reservation about 
setting aside the conviction until his confirmation took place. 
Can you tell us a little bit about that conversation? You said 
you had to press him. Did he tell you why he was concerned it 
would affect his confirmation?
    Mr. Louis Marcotte. Because if anyone--if the newspaper 
grabbed hold of it, then he would be worried that it would 
interfere with him being--his confirmation.
    Mr. Schiff. So he was aware that this was something that--
--
    Mr. Louis Marcotte. Probably wasn't kosher.
    Mr. Schiff. And, for that reason, the Senate might not 
confirm him if he knew that he was setting aside a conviction 
as a favor to you?
    Mr. Louis Marcotte. Yes, sir.
    Mr. Schiff. Can you tell us a little bit about the 
conversations you had with him where he indicated that he was 
concerned with confirmation if they found out about this or if 
the newspapers made it public?
    Mr. Louis Marcotte. Yeah. He just didn't want to make 
himself--he was worried about the confirmation, but he was 
trying to--he didn't want anything to come up that would, you 
know, cause him a problem from being confirmed.
    Mr. Schiff. And can you tell us what his words were, as 
best you can recall, how he expressed to you his concern that 
things might become public?
    Mr. Louis Marcotte. He said, ``Louis, I am not going to let 
Wallace get in the way of me of becoming a Federal judge and 
getting appointed for the rest of his life to set aside his 
conviction. Wait until it happens, and then I'll do it.''
    Mr. Schiff. You testified earlier about fixing his cars, 
transmission, air conditioning, radios, his son's cars. There 
were three cars, I guess, involved? His car, his wife's car, 
and his son's car?
    Mr. Louis Marcotte. There may have been a fourth car, 
because it might have been his wife, his car, and he had two 
sons. I think maybe they both had cars. But I could be wrong. 
It was either two or three cars--or four.
    Mr. Schiff. Can you give us an estimate over the years--and 
I know it is difficult to be precise, but how much you think 
you----
    Mr. Louis Marcotte. I would think somewhere maybe $1,000 on 
the cars every 2 months or every month and a half.
    Mr. Schiff. So you would spend about $1,000 every couple of 
months for various----
    Mr. Louis Marcotte. Between 1 or 2 months. Yeah.
    Mr. Regan. Let him finish his question.
    Mr. Louis Marcotte. I'm sorry, sir. Yeah.
    Mr. Schiff. That is okay.
    So you would do various repairs on various cars of the 
Porteouses.
    Mr. Louis Marcotte. Yes, sir.
    Mr. Schiff. And how many years would that take place?
    Mr. Louis Marcotte. That took place I guess maybe, you 
know, 4 or 5 years.
    Mr. Schiff. So just in terms of ballpark, would it be fair 
to say that over that period of time you probably spent in 
excess of 10 or maybe $20,000 on automotive repairs for Judge 
Porteous?
    Mr. Louis Marcotte. I don't know if it was 20, but maybe, 
you know , probably 10. You know, again, I am just guessing. It 
has been a long time. But I know it is in between, you know, 8 
and 15, you know? Something like that.
    Mr. Schiff. And you would have lunch with the judge about 
how often?
    Mr. Louis Marcotte. Probably once or twice a week.
    Mr. Schiff. And on an average lunch, what would the total 
bill be?
    Mr. Louis Marcotte. Between 2 and $300. You know, and it 
would--if I had a lot of people with us, then it could go a lot 
higher. You know, if I was bringing other judges to the table, 
if I was bringing more of my employees to the table; or if it 
was just me, him, and two lawyers or something, it would be 
less. So I would say anywhere between 2 and 400.
    Mr. Schiff. And in terms of what you were spending on the 
judge at one of these lunches between what he had for lunch at 
one of the steakhouses, and I think you testified that he would 
have five vodka drinks, what would his part of the tab 
generally cost?
    Mr. Louis Marcotte. His tab alone?
    Mr. Schiff. Yeah.
    Mr. Louis Marcotte. Out of the five or six people that were 
at the table at the time?
    Mr. Schiff. Yes.
    Mr. Louis Marcotte. I would say 60, 70 bucks, 80 bucks.
    Mr. Schiff. And that would be a couple times a week?
    Mr. Louis Marcotte. That would be a couple times a week.
    Mr. Schiff. And, over the years, then you would spend 
literally thousands of dollars paying for meals for Judge 
Porteous?
    Mr. Louis Marcotte. Yes. And there was other circumstances 
where he brought his friends, you know, that maybe couldn't 
benefit me. But they were his friends, you know.
    Mr. Schiff. In discussing the payment for the trip to Las 
Vegas, I think you used the term that to disguise the payment 
for the trip that you took various steps to deliver cash and to 
pay directly for plane reservations and that type of thing. 
Whose idea was it to make sure that the payment for the trip 
was disguised? How did that come about? In other words, why was 
that done, rather than just giving him a check?
    Mr. Louis Marcotte. I think it was my idea, and I think it 
was also Porteous's idea to get Rhonda to--you know, he wanted 
to disguise it through Rhonda, and so did I.
    Mr. Schiff. And can you tell us what he said to you that 
indicated to you that he wanted this disguised as well?
    Mr. Louis Marcotte. Well, he said it to Rhonda, and then 
Rhonda said it to us, you know: The judge really don't want you 
all to pay directly. You all are going to pay me, and then I am 
going to write the checks.
    Mr. Schiff. And did she explain why the judge didn't want 
you to pay directly? Or was that pretty obvious?
    Mr. Louis Marcotte. Because, again, it wouldn't look good 
if a judge was going to Las Vegas with a bail bondsman.
    Mr. Schiff. You mentioned with respect to Mr. Duhon that it 
was a different judge that had sentenced him.
    Mr. Louis Marcotte. Yes, sir.
    Mr. Schiff. And in the ordinary course of events, if you 
were going to seek to set aside a conviction, you would go to 
the judge in whose department or courtroom the person was 
convicted. Is that right?
    Mr. Louis Marcotte. Right. The protocol is, if a case is 
allotted to one judge and that judge sentences that person, 
that should be the only judge that could expunge his record or 
set aside the conviction. And in this case, Judge Porteous set 
aside Duhon's conviction in his section when it was in E.V. 
Richards's section of court.
    Mr. Schiff. E.V. Richards is another judge?
    Mr. Louis Marcotte. Yes.
    Mr. Schiff. Did you first try to go to E.V. Richards, or 
did you----
    Mr. Louis Marcotte. I believe I asked Judge Porteous to go 
to E.V. Richards.
    Did he go? I don't know. Did he tell me he went? Yes.
    So, you know, I don't think I would have any disbeliefs 
that, you know, if he told me that he went to him. But I really 
don't know if he went to him because I wasn't present when he 
supposedly asked E.V. Richards: Will you expunge Jeff Duhon's 
record?
    Mr. Schiff. But you didn't go to E.V. Richards yourself?
    Mr. Louis Marcotte. No, sir, I did not.
    Mr. Schiff. So you didn't try to go to that judge first. 
You went directly to Judge Porteous?
    Mr. Louis Marcotte. Right. Bonds were one thing, you know, 
that was acceptable in the courthouse for a bondsman to go to a 
judge and ask him to set a bond at that time. But to go ask, 
you know, for me to play lawyer and ask E.V. Richards to set 
aside a conviction with a motion that a lawyer would draw up 
would be totally, you know, inappropriate.
    Mr. Schiff. And you didn't have the kind of relationship 
with E.V. Richards where you could go directly to that judge 
the way you could with Judge Porteous?
    Mr. Louis Marcotte. No, I did not.
    Mr. Schiff. You testified earlier about reservations that 
Judge Porteous had about setting aside Wallace's conviction 
before the confirmation. When you went to him about the Duhon 
conviction, did he express any reservations about doing it?
    Mr. Louis Marcotte. Duhon's conviction? He said that it 
would be very hard to do Duhon's conviction because it is not 
in my section. Wallace's would be easier because the case is in 
my section.
    Now, Wallace--he wasn't the sentencing judge for Wallace. 
Whoever Porteous's predecessor was before Porteous was the one 
who gave Wallace the time, but the case would still follow the 
same division.
    Mr. Schiff. And tell us what the conversation that you had 
with him about Duhon. Did he express to you: What you are 
asking me isn't going to be easy because that is not in my 
department?
    Mr. Louis Marcotte. I am sorry. I couldn't hear.
    Mr. Schiff. If you could tell us about the conversation you 
had with Judge Porteous when you asked him to set aside the 
Duhon conviction. Did he tell you that what you were asking was 
going to be difficult because the case was before a different 
department?
    Mr. Louis Marcotte. Yes, he did. He said: I have to get 
E.V. Richards to agree to it and have him do it. And then me, a 
guy who doesn't take no for an answer, I kept pushing him to go 
to Richards. And he did it. Richards wouldn't do it, so 
Porteous wound up doing it for me even though he didn't have 
the authority to do it.
    Mr. Schiff. And when you were pushing him to do this for 
you, what arguments did you use? Did you ever make reference 
to: ``Hey, judge, look at all the things I have done for you. 
Can't you do this for me? Did you ever bring up with him----''
    Mr. Louis Marcotte. No, I didn't bring any of that up. But 
I kept saying: ``Judge, I really need to get him licensed in my 
office or I am going to have to fire him.'' Because the 
Commission's new rules are now, to accept premium inside of any 
insurance agency or negotiate any kind of bonds, you have to be 
licensed with the Commission of Insurance; and Jeff wasn't 
licensed. So I was operating illegally with Jeff in my office 
negotiating bonds and taking premiums because he was a 
convicted felon without a license. And that could cause me 
problems with the Commission of Insurance, and I could be shut 
down.
    Mr. Schiff. And so at some point the judge said, all right, 
he would do it?
    Mr. Louis Marcotte. And at some point the judge said: 
``Okay, I'll do it.''
    Mr. Schiff. And was the conviction in that case set aside 
by the other judge at the request of Judge Porteous, or did the 
case get transferred to Judge Porteous so that he could set it 
aside?
    Mr. Louis Marcotte. Well, there was no transferring the 
case. He took the record, brought it into his division, and 
then he expunged it.
    Now, was the D.A. present when he did that? I don't know. 
All I saw was the paper that it was expunged. And if I can 
vaguely remember, I believe I had one of my lawyers staying in 
for that expungement, one lawyer that I was sending criminal 
work to.
    Mr. Schiff. You mentioned that you were aware of Judge 
Porteous's financial circumstances. At the time, or really at 
any time, did the judge ever ask you for cash rather than help 
with a car, help with something else? Did he ever ask you for 
money?
    Mr. Louis Marcotte. He never did ask me for cash, ever.
    Mr. Schiff. Did you ever give him cash?
    Mr. Louis Marcotte. No, sir.
    Mr. Schiff. Other than----
    Mr. Louis Marcotte. The only thing I ever gave him was 
gifts that--gifts that had value that--you know, it was a gift 
that was worth cash, but it wasn't money that I put in his hand 
ever.
    Mr. Schiff. And what kind of gifts that had the value of 
cash are you referring to?
    Mr. Louis Marcotte. I am sorry?
    Mr. Schiff. You said you gave him gifts that had the value 
of cash but not cash itself.
    Mr. Louis Marcotte. Like the repairs on his car, the money 
I spent on his tires, the shrimp that I gave him, the radio 
that I put in his car, the fixing of his automobiles. And the 
closest I ever gave cash to him was the money that I gave to 
Rhonda to deposit for the trip. But I have never gave him cash 
to do a bond.
    Mr. Schiff. You mentioned you were aware----
    Mr. Louis Marcotte. Only gifts.
    Mr. Schiff [continuing]. That he was a gambler. When did 
you become aware of him being a gambler?
    Mr. Louis Marcotte. Well, even before I was really close 
with him, I knew he went to the casinos and stuff like that. 
And then as time progressed I heard about him going to the 
casinos more and more and more, and then--you know, maybe we 
was at lunch quite a few times, and he would say: Well, after I 
leave here I'm going to a casino. And when we was in Las Vegas, 
you know, he wouldn't leave the table, you know. He gambled 
from the--I mean, there was times that I bought tickets for 
shows for us to go to and he wouldn't leave the table to go to 
the shows. He just kept gambling.
    Mr. Schiff. And by ``the tables,'' you mean poker tables or 
craps tables?
    Mr. Louis Marcotte. Yes, sir.
    Mr. Schiff. I want to ask you a little bit more about your 
conversation with Judge Porteous around the time of the FBI 
interviewing you regarding Judge Porteous's confirmation. You 
say you think that the judge was the one who referred the FBI 
to talk with you. Is that based on something the FBI said when 
they came to see you, or why do you think that they got your 
name from him?
    Mr. Louis Marcotte. You know, I really don't remember. 
Either Porteous told me that they were coming to see me, or the 
FBI knew on their own that I was close with him and they saw me 
and other lawyers who that they already knew that was close 
with him through other people they may have questioned. But I 
am really not exactly sure, but I think I am almost 100 percent 
sure Porteous told me: ``The FBI is coming to see you.''
    Mr. Schiff. And how soon after the FBI interviewed you did 
you talk to Judge Porteous about what they asked you and what 
you said?
    Mr. Louis Marcotte. Right away. You know, maybe the next 
day we went to lunch and I told him: This is what these guys 
said, this is what they asked, and this is what I told them.
    Mr. Schiff. Did he ask you at this lunch the next day or 
so, you know, what happened during the FBI interview, or what 
did you say? Do you remember whether you brought it up or he 
brought it up?
    Mr. Louis Marcotte. I am sorry?
    Mr. Schiff. When you had your first interview with Judge 
Porteous after the FBI interview, did he ask you what took 
place, or did you volunteer it? Who brought up the subject?
    Mr. Louis Marcotte. He asked me. I mean, it all happened 
within a couple of minutes. Hey--I said, judge, the FBI. And he 
said, what did they say? You know. And I told him everything 
that they said.
    Mr. Schiff. So you told him about the questions they had 
asked you about his gambling, about his financial situation, 
about anything that might bear adversely on his confirmation? 
You told him about those questions you were asked by the FBI?
    Mr. Louis Marcotte. Yes.
    Mr. Schiff. And you told him basically that----
    Mr. Louis Marcotte. ``Judge, I gave you the clean bill of 
health with them.''
    Mr. Schiff. And was it clear in your conversation with him 
that you did not tell the FBI anything about the gifts and car 
repairs and fence repairs and other things you had done for the 
judge?
    Mr. Louis Marcotte. No. I didn't tell them that, because I 
knew it would hurt him, and I was trying to protect him because 
he was really good to me.
    Mr. Schiff. What I am asking, though, is was it clear from 
your conversation with Judge Porteous? Did you make it clear 
with Judge Porteous that you didn't tell the FBI any----
    Mr. Louis Marcotte. Yes, I did.
    Mr. Schiff [continuing]. Of these things with your 
relationship with him that would have harmed his confirmation?
    Mr. Louis Marcotte. Actually, no, because they didn't ask 
those questions about, you know, his car repairs and shrimp or 
anything. I just told him what they asked about.
    Mr. Schiff. Let me ask you--while we look for that, let me 
ask just a couple more questions.
    At the meeting that took place, I guess the lunch meeting 
with Judge Porteous and with Judge Bodenheimer where you hoped 
that the judge would sort of bring him in to have the same kind 
of relationship with you----
    Mr. Louis Marcotte. In other words, I wanted the judge--you 
know, number one, Bodenheimer really respected Porteous. And I 
wanted Porteous to groom him so, you know, I would have a 
predecessor to Porteous after he was gone and I would have 
someone who would do the bonds for me, you know, like Porteous 
done them.
    Mr. Schiff. And did you tell Judge Porteous that you wanted 
him to help groom Judge Bodenheimer? Did you use that term with 
him?
    Mr. Louis Marcotte. Yes, sir, I did.
    Mr. Schiff. And did Judge Porteous tell you whether he was 
willing to do that?
    Mr. Louis Marcotte. He would always say: ``I'll talk to 
him.''
    Mr. Schiff. During the lunch you had with the two judges, 
Porteous and Bodenheimer, did Judge Porteous or you ever 
indicate the benefit to Judge Bodenheimer by being available to 
you in terms of setting bonds, splitting bonds, or any of those 
things? Did either of you ever convey to Judge Bodenheimer what 
he could expect from it by way of lunches or car repairs or 
anything else?
    Mr. Louis Marcotte. We never discussed that. He would just 
discuss, you know, how good it would be for the criminal 
justice system if he did these bonds.
    Mr. Schiff. But in terms of that meeting, you didn't have 
any conversation about the personal benefit that Judge 
Bodenheimer could----
    Mr. Louis Marcotte. Well, I think he would--I am sorry. I 
think he would say that you'll never have to buy lunch again.
    Mr. Schiff. I am going to reserve that last question until 
we find the exhibit I was looking for; and at this point let me 
turn it over to my colleague, Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    Mr. Marcotte, how old are you?
    Mr. Louis Marcotte. I am 48.
    Mr. Goodlatte. So at the time you got into the bail bonds 
business you were in your late 20's?
    Mr. Louis Marcotte. Probably 18.
    Mr. Goodlatte. Oh, 18?
    Mr. Louis Marcotte. Yes, sir.
    Mr. Goodlatte. So in the early '80's?
    Mr. Louis Marcotte. 1970--to be exact, 1978.
    Mr. Goodlatte. So this arrangement you had with Judge 
Porteous, was that the first judge where you had this kind of 
arrangement? Or did you have that going on before that, too?
    Mr. Louis Marcotte. No, sir, I didn't. See, there was a 
time that the criminal justice system implemented taxes on 
every bond that was written. So in the old days if I had a 
hundred thousand dollar bond and I wrote for my insurance 
company, the premium to the--I had a contract with my insurance 
company that I was 100 percent liable for every bond that I 
wrote. Okay? The day I don't pay that bond, the insurance 
company cuts me off. Okay?
    Well, my premium--if you take 100 percent--if you take 90 
percent of the insurance premium, then you have all of the risk 
on the bond. So if you only--if this insurance company only 
takes 10 percent of the 10 percent--which----
    Okay, let me explain. If the bond was a thousand, I would 
get 900 and the insurance company would get 100. Okay. In the 
old days, I didn't need judges. I didn't need lawyers. I didn't 
need any of that. If the bond was set at $100,000 and the 
people had $2,000 or $3,000, I paid $1,000 to my insurance 
company and I still made $3,000. I set the people up on a 
balance. If it is a good bond, whether they paid me or not, I 
still made money.
    So what happened, as time progressed, they started putting 
in fees at the jail. So the fees got almost all the way--they 
started at 2 percent of the bond, then 2\1/2\, then 3, then 4, 
so that now the fees are almost 40 percent at the jail. So at 
some point I needed the judges, because by the time I paid the 
insurance company, put a half a percent on the side for my 
reserve account, and to have a 40 percent tax, all of a sudden 
my bond costs was 50 percent.
    Mr. Goodlatte. And were these fees that were charged at the 
jail legitimate fees?
    Mr. Louis Marcotte. They were fees that went to the IDB, 
the Sheriff, the Indigent Defendant Board, and the District 
Attorney's Office.
    Mr. Goodlatte. These were taxes, essentially.
    Mr. Louis Marcotte. It was a tax.
    Mr. Goodlatte. They were a statutory, lawful requirement. 
They weren't fees you had to pay in order to accomplish 
anything.
    Mr. Louis Marcotte. They were statutory laws that were 
implemented by the State.
    Mr. Goodlatte. But, originally, if you just had to pay 
effectively 1 percent of a $100,000 bond to the insurance 
company, even if you didn't get the full $10,000, you were 
still making money?
    Mr. Louis Marcotte. I was still making money, as long as I 
was writing good bonds. And I set them up with the balance. So 
once that 50 percent tax came in, now I have got a $100,000 
bond and I need six grand that has to go to the insurance 
company and to the courts.
    Mr. Goodlatte. Was Judge Porteous the first judge who was 
receptive to your suggestions about how to set the bond levels?
    Mr. Louis Marcotte. Well, the taxes came in a little bit 
before Porteous. And what I have done at that point--you see, 
my sister and I, you know, we grew up really poor in our life. 
We didn't have connections with, you know, lawyers when we got 
in the bail bond business. So--we didn't have connections with 
judges, period. So what we would do to get the bonds reduced, 
if we had a $5,000 bond and the people had $500, we would give 
a lawyer $150 to go see the judge and get the bond reduced. So 
the lawyers would go and get the bonds reduced, and we were 
paying them a fee out of our premium to do that. And then as 
time progressed, you know, we started going to lunches with the 
lawyers that were getting the bonds reduced, and then we 
started--and the judges were there, too. So--and then we 
started developing our own relationship with the judges.
    Now, in the real old days, you know, I am talking about 25 
years ago when I went to work for a guy who was a bail 
bondsman, for 30 years before I got there, he was close with a 
couple of judges, and I used to be able to call him to set and 
reduce the bonds. But after I left him, he was in business for 
a couple years and none of the judges wanted to fool with me, 
so I had to get all the lawyers to get the bonds reduced.
    But what happened with me was going on with this other guy. 
I mean, he is the one who trained me, you know? And he is the 
one who was getting the bonds reduced with the judges, and he 
is splitting bonds and all of that stuff. And then after I left 
him, then I needed lawyers to do it. And then, after that, I 
started getting them done with the lawyers at that point, and 
that is when Porteous came in.
    Mr. Goodlatte. Did you do any bail bonding in Federal 
court?
    Mr. Louis Marcotte. Yes, I did.
    Mr. Goodlatte. And how did that work?
    Mr. Louis Marcotte. We didn't get a lot of Federal bonds 
because, you know, they had cash deposits that they had to pay 
and there was a lot of personal surety there. But we would get 
maybe three or four a month.
    Mr. Goodlatte. And did that continue after Judge Porteous 
went on the Federal bench?
    Mr. Louis Marcotte. No, it didn't, because--you know, I 
vaguely remember asking Porteous could he talk to the 
Magistrate Louie Moore to set more commercial bonds in the 
Federal system. Now, again, you know, he said that he would do 
it. But did he actually do it and just came back and danced 
with me and said he did? Or--I think he may have told me--well, 
you know, at some point, after I kept asking him, I think he 
said Louie Moore backed up and he wasn't receptive to doing the 
commercial bonds.
    Mr. Goodlatte. So when Judge Porteous got nominated to the 
Federal bench, what was your reaction to that?
    Mr. Louis Marcotte. I know my sales are going to drop to 
nothing. That was my reaction to myself. I didn't express that 
reaction to anyone else.
    Mr. Goodlatte. And after he got on the Federal bench, did 
you continue to have any relationship with him?
    Mr. Louis Marcotte. Yes, I did. Not--you know, not like I 
had, because, you know, he was--I still viewed him as a friend, 
but, you know, I needed to start working on other people in the 
criminal justice system that I could make money with.
    Mr. Goodlatte. That is why you asked him to intercede with 
Judge Bodenheimer and other judges?
    Mr. Louis Marcotte. Yes, to groom these other people so 
that other people could step in where he left off.
    Mr. Goodlatte. The interview with the FBI that Chairman 
Schiff asked you about, when did that take place?
    Mr. Louis Marcotte. I think right--I don't know dates, you 
know. I think right before the interview with the FBI, before 
he was confirmed?
    Mr. Goodlatte. Were you interviewed by the FBI before he 
was confirmed?
    Mr. Louis Marcotte. Yes, there were two interviews, and--
there was two interviews.
    Mr. Goodlatte. One was in August 1994?
    Mr. Louis Marcotte. Of course I don't remember the exact 
dates, but, yes. And then the other one was--I don't remember 
the dates, sir.
    Mr. Goodlatte. But both were in relationship to his----
    Mr. Louis Marcotte. Confirmation.
    Mr. Goodlatte. Confirmation.
    What about later on when they were investigating this whole 
matter? And we are talking years later. Did they interview you 
with regard to Judge Porteous at that time?
    Mr. Louis Marcotte. What matter?
    Mr. Goodlatte. The investigation, the Wrinkled Robe 
investigation.
    Mr. Louis Marcotte. Did they interview me?
    Mr. Goodlatte. Yes, regarding Judge Porteous.
    Mr. Louis Marcotte. Yes. Years--I mean, they raided my 
office in 2002, and I didn't start cooperating with them until 
2004. At that point--no. Well, I know the U.S. Attorneys Office 
didn't, because they couldn't interview me because Porteous--- 
his situation on the Federal bench, the U.S. Attorney 
Washington had to do it. Now, the FBI agents were able to 
interview me, but the U.S. Attorneys Office had to recuse 
themselves.
    Mr. Goodlatte. Now, going back to the interviews you had 
with the FBI in 1994, around August, 1994, and then you 
subsequently met with Judge Porteous and you told him about 
your conversations with the FBI. Is that correct?
    Mr. Louis Marcotte. In 2004?
    Mr. Goodlatte. In 1994.
    Mr. Louis Marcotte. In 1994? No, I didn't meet with 
Porteous in 1994. I met with his lawyer, Cyle Schonekas.
    Mr. Goodlatte. Now, when you were interviewed by the FBI 
with regard to his background information leading up to his 
confirmation as a U.S. district court judge----
    Mr. Louis Marcotte. In 2004, or when?
    Mr. Goodlatte. Of 1994. August 1994.
    Mr. Louis Marcotte. Okay.
    Mr. Goodlatte. You met with the FBI, and then I think you 
just testified to the Chairman that you then subsequently had 
lunch with Judge Porteous. Is that correct?
    Mr. Louis Marcotte. In 1994? Yes. Yes, I did. And I told 
him what I said, you know, that--everything that they asked me.
    Mr. Goodlatte. And you told the FBI inaccurate, misleading, 
and false information regarding the relationship you had with 
the judge, or you omitted information?
    Mr. Louis Marcotte. Like I stated, I lied to them.
    Mr. Goodlatte. And did Judge Porteous understand during 
your conversation with him that you had lied to the FBI for 
him?
    Mr. Louis Marcotte. I didn't actually say ``I lied for you, 
Judge.'' I just told him everything that he--everything that 
they asked me. So, you know, if you could read it, all the 
questions: If he wasn't an alcoholic and all of that. He had to 
figure out in his own head that I was lying for him.
    Mr. Goodlatte. Do you think he was capable of doing that?
    Mr. Louis Marcotte. Absolutely.
    Mr. Goodlatte. Mr. Marcotte, did Judge Porteous ask you for 
car repairs or other things of value while you were in his 
court chambers discussing bail bonds at any time?
    Mr. Louis Marcotte. I think, you know--again, I don't 
remember exactly, but there could have been times after he done 
the bonds. He would say: ``Hey, by the way, Timmy's car's 
broke. Could you go have Skeeter go pick it up?''
    And they also called a lot. You know, Rhonda would call and 
say, ``Hey, look, one of the cars are broken. Can you get it?''
    And then after that, you know, once we started fixing the 
cars, then I would start calling in the bonds. I would open the 
gates a little more, you know, when I was doing something.
    Mr. Goodlatte. Did Judge Porteous have any conversations 
with you directly about the timing of Aubrey Wallace's 
expungement.
    Mr. Louis Marcotte. Did he have what?
    Mr. Goodlatte. Did he have any conversations with you 
regarding the timing of Aubrey Wallace's expungement?
    Mr. Louis Marcotte. I mean, not with dates. But after he 
was confirmed, he would do it. So, I mean, was it a couple of 
months? I don't know the dates. But was it a couple of months 
or a month after, he did it, you know.
    Mr. Goodlatte. But, I mean, did he discuss with you when he 
would do it, the timing of it?
    Mr. Louis Marcotte. Just, ``I will do it after I am 
confirmed.''
    Mr. Goodlatte. And did Judge Porteous say he wanted to wait 
until the last days of his State court term to expunge 
Wallace's record because he believed that timing was beneficial 
in relation to his Senate confirmation?
    Mr. Louis Marcotte. Yes, he did.
    Mr. Goodlatte. And I think you have already answered this 
question regarding Jeffrey Duhon. The reason you approached 
Judge Porteous to set aside the burglary conviction of Mr. 
Duhon was that you had a better relationship with Judge 
Porteous than you did with the judge who actually handed down 
the sentence.
    Mr. Louis Marcotte. Yes, I did.
    Mr. Goodlatte. Okay. Thank you.
    Chairman, thank you.
    Mr. Schiff. Thank you.
    The gentleman yields back.
    Mr. Marcotte, I have the exhibit that I was looking for 
earlier. I just want to ask you a couple of quick questions 
about it before I turn to Ms. Jackson Lee. These were questions 
that the FBI asked you about during the pre-confirmation 
period. The FBI interview says, ``He advised,'' meaning Mr. 
Marcotte, ``that the candidate will have a beer or two at 
lunch, but he has never seen him drunk.''
    Does that refresh your recollection as to whether you would 
have told Judge Porteous, ``They asked me about your 
drinking''?
    Mr. Louis Marcotte. Yes.
    Mr. Schiff. And would you have told Judge Porteous that you 
told them that you had seen him have a drink?
    Mr. Louis Marcotte. I said I saw him have a few beers or 
two.
    Mr. Schiff. But you made it clear to him you didn't tell 
them the full extent of his drinking?
    Mr. Louis Marcotte. I am sorry?
    Mr. Schiff. But you would have made it clear to Judge 
Porteous you didn't tell the FBI the full extent of his 
drinking?
    Mr. Louis Marcotte. Yes. Yes.
    Mr. Schiff. It also says, ``He has no knowledge of the 
candidate's financial situation.'' Did you tell Judge Porteous 
that they had asked about his financial situation?
    Mr. Louis Marcotte. Right, and I would have told them I 
don't know anything about his financial situation at that time.
    Mr. Schiff. It also says, ``He is not aware of anything in 
the candidate's background that might be the basis of attempted 
influence, pressure, coercion, or compromise or that would 
impact negatively on the candidate's character, reputation, 
judgment, or discretion.''
    Did you tell Judge Porteous that they had asked you that 
question?
    Mr. Louis Marcotte. Yes, I did.
    Mr. Schiff. And did you tell him that you told the FBI you 
weren't aware of anything in his background that might be the 
basis of attempted influence, pressure, coercion, or compromise 
or that would impact negatively on his character, reputation, 
judgment, or discretion?
    Mr. Louis Marcotte. Yes, I did.
    Mr. Schiff. So Judge Porteous was aware, prior to his 
confirmation, that you had been asked about anything in his 
background of this nature and that you had told them there was 
nothing you were aware of?
    Mr. Louis Marcotte. Yes.
    Mr. Schiff. So, going into his confirmation, Judge Porteous 
was aware that the FBI was not given the information it would 
need to evaluate his character, reputation, judgment, and 
discretion?
    Mr. Louis Marcotte. Yes. I gave them the wrong information.
    Mr. Schiff. You gave them the wrong information.
    At this point, let me turn to my colleague, Ms. Jackson 
Lee.
    Ms. Jackson Lee, we have 5 minutes 30 seconds before the 
vote on the conference report. We are going to have to come 
back briefly after votes. Would you like to start your 
questions now?
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    Mr. Marcotte, how many years have you known Judge Porteous, 
please?
    Mr. Louis Marcotte. Well, he was on the bench before I knew 
him personally. I mean, I knew that he was on the bench.
    Ms. Jackson Lee. Right. But just give me the years that you 
knew him.
    Mr. Louis Marcotte. I would say I probably--I knew he was--
I would just say 20 years.
    Ms. Jackson Lee. Twenty years.
    Ms. Marcotte, how many years did you know Judge Porteous?
    Ms. Lori Marcotte. I would say from 1989 until----
    Ms. Jackson Lee. About 20 years. Let me ask, are these 
proceedings that we have, are they on the front page of your 
local newspapers in New Orleans? Are they being written up in 
the newspaper?
    Mr. Louis Marcotte. Yes, it has.
    Ms. Jackson Lee. Is your bail bond company still in 
business?
    Mr. Louis Marcotte. My bail bond company?
    Ms. Jackson Lee. Yes.
    Mr. Louis Marcotte. It is still in business, but I don't 
own it. The government let me--I sold it.
    Ms. Jackson Lee. Okay. You sold it to someone?
    Mr. Louis Marcotte. Yes, ma'am.
    Ms. Jackson Lee. Okay. So you are out of the bail bonds 
business?
    Mr. Louis Marcotte. Yes, ma'am.
    Ms. Jackson Lee. And you are doing what right now?
    Mr. Louis Marcotte. Right now I have an Italian clothing 
store.
    Ms. Jackson Lee. Okay. In 1994, did you both know Judge 
Porteous?
    Mr. Louis Marcotte. Yes, I did.
    Ms. Jackson Lee. There was a question that was asked on a 
judicial form that said, ``Is there anything in your personal 
life that could be used by someone to coerce or blackmail you? 
Is there anything in your life that could cause an 
embarrassment by you or to the President if publicly known?'' I 
would say to you that this was a document signed by Judge 
Porteous during the confirmation.
    Do you know anything that would have needed to be said? The 
answer that was given by Judge Porteous--and we have already 
documented this--was, no, that there was nothing that would 
embarrass the President.
    Did you think in 1994, did you have any dealings with him 
that might have embarrassed the President if it was known that 
he was nominating a person of this type?
    Mr. Louis Marcotte. Yes.
    Ms. Jackson Lee. And do you believe the relationship that 
you had with Judge Porteous over the years was an appropriate 
one or inappropriate one?
    Mr. Louis Marcotte. It was an inappropriate relationship.
    Ms. Jackson Lee. And Ms. Marcotte?
    Ms. Lori Marcotte. Yes, ma'am, the same.
    Ms. Jackson Lee. I have no further questions. Thank you.
    Mr. Schiff. I thank the gentlewoman.
    The gentlewoman yields back.
    At this point, we will recess. We have three votes, which 
will probably take about a half an hour, so we will resume at 
2:30. And I expect to be fairly brief when we come back.
    Oh, it is only two votes. Okay, only two votes, so we will 
resume right after votes, which may be in about 20 minutes. We 
will resume in 20 minutes.
    [Recess.]
    Mr. Schiff. The Task Force will now recommence.
    Mr. Marcotte, do I understand there is something in your 
testimony from today you would like to clarify?
    Mr. Regan. Mr. Chairman, Martin Regan.
    Mr. Schiff. Counsel, could you grab the microphone?
    Mr. Regan. During the recess, having spoken with my client, 
he did want to clarify one thing.
    There were questions regarding the amounts he spent on 
repairs for automobiles. He indicated certain numbers. He can't 
be certain of those numbers, though he knows it was several 
thousand dollars over the time in question, because he was not 
directly paying it. His company was paying it, and he didn't 
personally handle the checks.
    But he approved the repairs, the radio, the tires, painting 
an automobile, and things of this sort. But he cannot be exact 
today on the amounts that were paid. And not $1,000 a week, but 
maybe $1,000 a month over a period of time. And the months 
differed based on the work that was being done. And he may have 
something to add to that, but we wanted to clarify that.
    Mr. Schiff. All right. Thank you, Counsel.
    Mr. Marcotte?
    Mr. Louis Marcotte. I don't know if I said it, did I say 
$1,000 a week?
    Mr. Schiff. I believe--yeah, we can take a look--I believe 
you said a thousand every couple months.
    Mr. Louis Marcotte. I think that is what I said. And it is 
hard for me to quantify the amount, because, again, if I wasn't 
there and they called in to get the car repaired, I mean, my 
accounting department would just cut the check, and Aubrey or 
Jeff would go get it, and I wouldn't even see it.
    You know, I mean, at one point, we probably signed 300 to 
500 checks a week. You know, I mean, I had 300 employees. I had 
a payroll clerk. I mean, there was a lot of checks that came in 
and out of there.
    So I just wanted to clarify the amount, you know. It is 
hard for me to really quantify the amount. But I think if I 
said, you know, $1,000 a month, that would probably be between 
$1,000 a month or $1,000 every 6 weeks, I think that would be 
probably a good estimate, but I don't know if it is exact.
    Mr. Schiff. Thank you, Mr. Marcotte. And I think you said 
earlier that you thought, over the period of 3 or 4 years, that 
would probably have been in excess of $10,000, maybe not in 
excess of $20,000, but you thought it would be in excess of 
$10,000 for all of the vehicles. Is that still your best sense?
    Mr. Louis Marcotte. I would think that would be a good 
number. Between $7,500 and $12,000, something like that.
    Mr. Schiff. Thank you, Mr. Marcotte.
    I am now going to recognize Mr. Lungren of California.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    Mr. Marcotte, I would just like to get some things clear in 
my own mind. I practiced law in California, and I am trying to 
figure out how your bail bond operation worked compared to what 
I was used to in California.
    When you talked about the bonds that you would attempt to 
get--I understand, from your standpoint, to make more money, 
the higher the bond that the person could pay, the higher the 
amount that you were able to get. But in the courts that we are 
talking about, was there a--or in the jails--was there a 
schedule of recommended bail for particular offenses?
    Mr. Louis Marcotte. See, Judge, in--I mean, I am sorry. In 
California, they have a bond schedule--because I am familiar 
with all the States because I have done bail in all of them. In 
California, they have a bond schedule for each charge. Well, in 
Louisiana, they only have a bond schedule on misdemeanor 
charges. So anything that is a felony has to be set by a judge.
    A misdemeanor bond, there is a schedule of bonds at the 
jail. So the jailer just looks at what the charge is and marks 
in the scheduled amount that has been approved by the Second 
Parish judge for that scheduled bond.
    Mr. Lungren. So when you were informed that you had a 
person who wanted to utilize your services who was charged with 
a felony, you would either go to the magistrate, is that 
correct, or try and shop to a favorable judge?
    Mr. Louis Marcotte. If there was a favorable magistrate, I 
would go to that person. If they were unfavorable and I knew 
that I couldn't get what I wanted, I went to someone who would 
give me what I wanted.
    Mr. Lungren. When you say ``magistrate,'' in the system 
there, is the magistrate not a regular judge?
    Mr. Louis Marcotte. A magistrate--what a magistrate does is 
set bonds for everyone who is arrested the night before.
    Mr. Lungren. Okay. So it is not a rotating thing for the 
judges that normally sit, that they would sit as a magistrate 
in these things?
    Mr. Louis Marcotte. Well, sometimes the 24th Judicial 
Courts, the magistrates would rotate every week. But, at some 
point, they got away from that, and they came up with a 
magistrate that would sit all of the time.
    Mr. Lungren. Okay. So you would make a determination as to 
whether it was a, quote/unquote, ``favorable magistrate,'' and 
if it were not, you would on occasion attempt to shop judges, 
that is, to find a favorable judge, is that correct?
    Mr. Louis Marcotte. Yes, sir.
    Mr. Lungren. And, in this process, where was the defense 
attorney in this sort of thing? Were you consulting with a 
defense attorney? Were you able to talk to the magistrate 
without the defense attorney being present? What?
    Mr. Louis Marcotte. Defense attornies--see, the bail agent 
always has--not always, but most of the time, 80 percent of the 
time, has first crack at a defendant, because as soon as they 
hit the jail, they start calling the bail agents. And the bail 
agents are open 24 hours a day. So the families, to try to get 
them out of jail, would walk into the bail agency. We take in 
collect calls from the jail, and we are talking to everyone in 
the cells and getting the family's numbers and calling them up.
    So the bail agent really had first access to the defendant. 
And as soon as we found out that they had money, then we would 
start shopping judges to set the bond. And we try to find out 
how much money the defendant had and get the bond set to the 
amount of money that they had.
    Mr. Lungren. And in the conversation you would have had in 
contacting the judge, that would be without an attorney?
    Mr. Louis Marcotte. Without an attorney. The bail agent 
could request a bond amount from the judge.
    Mr. Lungren. And if there were a subsequent hearing on 
bail, could there be a subsequent hearing on bail?
    Mr. Louis Marcotte. Like a motion to reduce the bond?
    Mr. Lungren. Yes.
    Mr. Louis Marcotte. Yes, they would have motions to reduce 
the bonds. But most of the time we didn't need them.
    Mr. Lungren. What would occur if, in fact, the defendant 
did not show up for his appearance?
    Mr. Louis Marcotte. They would forfeit the bond, and then 
we would have to hunt them.
    Mr. Lungren. And you hunt them down and you bring them 
back. Would your bond be returned to you? Would your bond be--
--
    Mr. Louis Marcotte. What would happen is the--once the 
defendant is found, the courts would exonerate the bond, and 
then the liability would be taken off the books of the 
insurance company.
    Mr. Lungren. So, in essence, the bond would be returned?
    Mr. Louis Marcotte. Not returned. The bond automatically 
becomes a permanent part of the record. But you could get a 
cancellation from the clerk's office in the mortgage office. 
Because, once a bond is forfeited, they record a judgment in 
the mortgage office. So what you would do is get a copy of the 
cancellation and then go cancel it in the mortgage office.
    Mr. Lungren. Okay. What you have described with respect to 
splitting of the bond, was that, to your knowledge, begun by 
Judge Porteous?
    Mr. Louis Marcotte. It actually started way before 
Porteous, but it never went to the degree that it was when 
Porteous was there.
    Mr. Lungren. Would you explain what you mean by that?
    Mr. Louis Marcotte. Excuse me?
    Mr. Lungren. Would you explain what you mean by that?
    Mr. Louis Marcotte. Well, in the old days--and I am talking 
about before Porteous was a judge--they only arrested two or 
three or four people a day in Jefferson Parish. Well, at the 
end of my career in the bail bond business, they were arresting 
300 people a day. So, I mean, you know, we had to get the bond 
split to make a lot of money in that business.
    Mr. Lungren. So when you say ``we'' had to, that means----
    Mr. Louis Marcotte. Bail Bonds Unlimited and Louis 
Marcotte.
    Mr. Lungren. So you had to rely on the judges doing that 
sort of thing so that you could keep your livelihood, is that 
right?
    Mr. Louis Marcotte. Yes, sir.
    Mr. Lungren. Did you have any specific conversations with 
Judge Porteous about that?
    Mr. Louis Marcotte. Well, in times I would tell him, 
``Look, we are doing really bad this week, Judge. We need these 
bonds done.''
    Mr. Lungren. And what response would you get from him?
    Mr. Louis Marcotte. He would do the bonds.
    Mr. Lungren. When you say ``do the bonds''----
    Mr. Louis Marcotte. He would, you know--he was doing the 
bonds anyway. But if I told him something like that, he would 
step it up a few notches.
    Mr. Lungren. I think that is all I have. Thank you.
    Mr. Schiff. I thank the gentleman.
    I just have a couple final questions.
    Mr. Marcotte, you have discussed today times when the 
judge, in one way or another, acknowledged the wrongfulness of 
what you were engaged in, in the sense of not wanting to do 
certain acts prior to his confirmation, for example.
    Can you give us any other instances where, through what the 
judge said or did, it was clear to you that he knew that the 
relationship he had with you was not above board?
    Mr. Louis Marcotte. By being on call--well, by being my go-
to guy.
    Mr. Schiff. Can you describe that a little more?
    Mr. Louis Marcotte. Well, whenever I needed to get 
something done, he was my go-to guy.
    Mr. Schiff. Did he ever tell you, you know, words to the 
effect of, ``Hey, if this became public, this could become a 
real problem for me''?
    Mr. Louis Marcotte. If our relationship became public?
    Mr. Schiff. Well, if your relationship became public or if 
something you were asking him to do became public. Did he ever 
indicate to you that any part of your relationship needed to be 
kept confidential?
    Mr. Louis Marcotte. No, he didn't. I guess everyone in the 
criminal justice system knew that he was my go-to guy. It 
wasn't no secret.
    Mr. Schiff. Ms. Marcotte----
    Mr. Louis Marcotte. I mean, when you are doing 5, 10, 15 
bonds a day, you know, for Louis Marcotte, there is a lot of 
jealousy around with other lawyers and other bondsmen. And, you 
know, people seeing you making all the money, and, you know, it 
wasn't no secret. And he wasn't trying to hide it, and I wasn't 
trying to hide it. And I think maybe we both thought maybe we 
were above the law.
    Mr. Schiff. And would the only exception to that be when 
the FBI came to talk to you about Judge Porteous?
    Mr. Louis Marcotte. I am sorry?
    Mr. Schiff. Was an exception to that rule when the FBI came 
to talk with you? You said we didn't try to hide it. When the 
FBI came to talk with you, though, you did try to hide it, am I 
right?
    Mr. Louis Marcotte. I did hide it. I lied to them, you 
know, to protect him.
    Mr. Schiff. Ms. Marcotte, let me ask you the same question. 
Either through your conversations with Ms. Danos, the judge's 
secretary, or lunches that you may have been in attendance at, 
were there any times in which Judge Porteous made comments or 
through his behavior demonstrated that he knew the wrongfulness 
of the kind of relationship he had with you and your brother?
    Ms. Lori Marcotte. I remember one time in particular when 
we went to see him in Federal court about a family that was 
competing against us and we had some noncompete agreements 
against them, and they were in front of a judge we knew he was 
close with, and we asked him to call and rule in our favor.
    Also, on another one, when he was on the 24th judicial 
bench, we asked him to call another judge to do that, too. And 
I think that is not something you do every day.
    Mr. Schiff. And, in both these cases where you called to 
ask him to use his influence with another judge to rule in your 
favor, was he on the State court at this time or were either of 
these occasions when he was a Federal judge?
    Ms. Lori Marcotte. Twice on the State court and once on the 
Federal court.
    Mr. Schiff. And can you describe those three situations for 
us?
    Ms. Lori Marcotte. We wanted to lock in all the business 
around that area. That is why we took the judge to lunch, to 
get the bonds done that we needed to get done. We also bought 
up some property around the area, too, not to let people get 
in. When we hired people, they signed noncompetition 
agreements, so if they left they couldn't open their own bail 
bond company, because we let them in on our secrets.
    So one gentleman left and started writing bail bonds, and 
we filed a temporary restraining order against him to stop 
competing, and it went to a judge that Judge Porteous knew. 
Louis and I went to talk to him and asked him to make a 
telephone call to rule in our favor.
    Mr. Schiff. At this time, in this first instance, was Judge 
Porteous on the State bench?
    Ms. Lori Marcotte. The State bench, yes.
    Mr. Schiff. Did he tell you whether he would call the other 
judge?
    Ms. Lori Marcotte. Yes.
    Mr. Schiff. And did he tell you afterwards that he had 
spoken with the other judge?
    Ms. Lori Marcotte. Yes.
    Mr. Schiff. And did that other judge rule in your favor?
    Ms. Lori Marcotte. Yes.
    Mr. Schiff. And what did Judge Porteous tell you that he 
told the other judge?
    Ms. Lori Marcotte. He said he asked him to rule in our 
favor, that we were good people and this person was just 
someone that was, you know, starting trouble for us. Pretty 
much like something our lawyer would say to a judge.
    Mr. Schiff. And tell us what the circumstances were in the 
two other cases.
    Ms. Lori Marcotte. The Federal case, there was a crew of 
people, a family we had hired, a mother, a father and, like, 
three or four brothers, and they were really head of our 
recovery department, like our little police department that was 
the collection agency, the bounty hunters. And they left, and 
all of them started to compete. And this was a big problem, 
because now it wasn't just one little-bitty person, this was a 
big thing.
    So we went to see Judge Porteous in his office and asked 
him to call this judge and talk, because we were really losing 
control of our business, at this point. And for this to happen 
would have been--and, ultimately, it did happen, and we really 
did lose control of our business. So we lost that case.
    Mr. Schiff. And, in that particular case, again, you filed 
a no-compete action in State court?
    Ms. Lori Marcotte. Yes, that is correct.
    Mr. Schiff. And you went to Judge Porteous, now sitting on 
the Federal bench, and asked him to intervene with this State 
court judge?
    Ms. Lori Marcotte. Yes. I remember this well because this 
was big. It was six or seven people. It was the family and then 
a couple of their people. It was our whole recovery force that 
left, that we had worked for to build up all these years, taken 
away in one scoop pretty much.
    Mr. Schiff. And what judge was this case assigned to?
    Ms. Lori Marcotte. Originally, we had talked to Judge 
Porteous about Greg Guidry, who was once a Federal prosecutor. 
And because Judge Porteous was in Federal court, we thought he 
would be close with him. But I think ultimately it ended up in 
another judge's section.
    Mr. Schiff. But it wasn't assigned to the same judge as the 
first no-compete case was?
    Ms. Lori Marcotte. No. That was separate.
    Mr. Schiff. And when you went to Judge Porteous, now 
Federal Judge Porteous, to ask him to talk to the judges 
presiding over this second case, what did Judge Porteous tell 
you?
    Ms. Lori Marcotte. He said he would do it. And something 
was faxed, I think. Our administrative assistant faxed 
something to him, or something was faxed. And I think, at one 
point, the FBI had a confirmation on a fax.
    But our administrative assistant faxed Rhonda, Judge 
Porteous's secretary, or the other way around, to get some of 
the information there. Or he sent something to the judge's 
office. I really don't know exactly how that happened.
    Mr. Schiff. And did you have a follow-up conversation with 
Judge Porteous to determine whether Judge Porteous had, in 
fact, spoken to this other judge?
    Ms. Lori Marcotte. Not myself personally, no.
    Mr. Schiff. And do you know who did? Did someone else have 
a conversation with him?
    Ms. Lori Marcotte. I think that--I don't know if Louis 
remembers, but a telephone call was made, and he said he talked 
to him. Now, whether he did or not, I don't know. But he said 
he would entertain it when we were in his office.
    Mr. Schiff. I am sorry, he said what?
    Ms. Lori Marcotte. He said he would entertain it when we 
were in--when we went to see him, he said okay. And then after 
some things were faxed, he said he had asked and that it would 
be okay, that he had talked to him. But I don't know for sure 
if he did talk to him.
    Mr. Schiff. But Judge Porteous conveyed to you--maybe not 
to you directly, but to your brother or to someone else at your 
bail bond firm--that, in fact, he had communicated with the 
other judge and it would be okay?
    Ms. Lori Marcotte. Yes.
    Mr. Schiff. Mr. Marcotte, were you the one that the judge 
communicated that to? Did he tell you that he had spoken to 
this other judge and that it would be okay?
    Mr. Louis Marcotte. I don't remember a whole lot about 
that. But what I do remember, my lawyer that was representing 
me to defend me on the noncompete against the Dennis family 
went into the judge's office. And the clerk in the judge's 
office had said, ``Look, this looks real good in you all's 
favor.'' And then about a day later he came back and said, 
``Look, he denied it.'' But I know Bridget had faxed the 
document to Judge Porteous's office.
    Now, did Beck speak with someone, the attorney that was 
representing me, did he speak to anyone about it? I am not 
exactly sure, but it is possible that he may have spoken to 
Rhonda.
    Mr. Schiff. So, at some point, you faxed to Judge 
Porteous's chambers----
    Mr. Louis Marcotte. Not me personally, but my 
administrative assistant.
    Mr. Schiff. Your administrative assistant faxed Judge 
Porteous some information about the no-compete case that you 
had.
    Mr. Louis Marcotte. And I think maybe my attorney 
underlined--and I could be wrong--the reasons why it should be 
set aside and then faxed it to Porteous, and Porteous faxed it 
to the other judge. You know, I mean, it has been a long time, 
so----
    Mr. Schiff. And these underlying points were, like, talking 
points for the judge to use in his conversation with the other 
judge?
    Mr. Louis Marcotte. This would be the points that we would 
give Porteous to hang his hat on to the judge he was going to 
request to deny the noncompete.
    Mr. Schiff. And, at some point after sending those 
documents, you got word back, although you are not clear on how 
it was communicated to you, from Judge Porteous that he had 
contacted the other judge and it looked like things would be 
all right?
    Mr. Louis Marcotte. It looked like things were going to be 
all right. But then, a couple days later, my attorney, who was 
representing me in the noncompete, said, ``God, it looked so 
good, like we were going to win,'' and then at the end he 
denied it.
    Mr. Schiff. Did you ever speak to Judge Porteous afterwards 
and say, you know, ``What happened?''
    Mr. Louis Marcotte. No. At that point, I went to war with 
my competitors in the lobby of the jail.
    Mr. Schiff. And, Ms. Marcotte, do you remember any follow-
up conversation after the judge that Judge Porteous 
communicated with turned your case down?
    Ms. Lori Marcotte. No----
    Mr. Schiff. Do you recall any follow-up?
    Ms. Lori Marcotte. No, I do not. There was none.
    Mr. Schiff. And I think you mentioned there was a third 
time when the judge intervened with another judge on your 
behalf.
    Ms. Lori Marcotte. I can't remember the defendant's name--I 
mean, the employee's name. There were, like, five employees 
before the family that came against us.
    Mr. Schiff. And that was a noncompete case, as well?
    Ms. Lori Marcotte. Yes.
    Mr. Schiff. And, in that case, the judge said that he would 
talk to another judge, and that judge ruled in your favor?
    Ms. Lori Marcotte. Yes.
    Mr. Schiff. And do you know whether he, in fact, did talk 
to that other judge?
    Ms. Lori Marcotte. He said he did. I mean, I need to see--I 
can't remember the employee's name.
    Mr. Schiff. Now, you brought this up in the context of 
other actions or things the judge said that indicated he 
understood the wrongfulness of what he was doing. During these 
three or more times when you asked the judge to intervene with 
another judge, did Judge Porteous ever say to you, ``Yes, I 
will do it, but, you know, you are asking a lot of me; this is 
really not something I am supposed to do''? Did he ever 
indicate to you verbally that he understood what he was doing 
was wrong?
    Ms. Lori Marcotte. Not verbally. But, you know, I think he 
wanted to help us and to foster the relationship that we had.
    Mr. Schiff. Anything else that you would like to share with 
us, either one of you, that will help give the Task Force 
guidance in terms of what Judge Porteous's thoughts were in 
terms of your relationship and his awareness of the 
inappropriate nature of it?
    Ms. Lori Marcotte. Well, when Louis was talking about Judge 
Porteous having reservations about doing the expungement until 
after--you were asking about times when he acknowledged----
    Mr. Schiff. Yes.
    Ms. Lori Marcotte. That is one. And I think Louis remembers 
the employee's name and the judge.
    Do you remember, from the other one?
    Mr. Louis Marcotte. Was it Rebecca Dunn? I believe it was 
Rebecca Dunn, but I don't remember what judge it was in that 
case. It may have been Skip Hand. I don't know.
    Mr. Schiff. Is this the noncompete case that you are 
referring to?
    Ms. Lori Marcotte. Yes.
    Mr. Schiff. The third one that you weren't sure you could 
remember which one? Is that what you are referring to?
    Ms. Lori Marcotte. Yes.
    Mr. Schiff. Okay. Anything else that you want to share with 
the Committee?
    Mr. Louis Marcotte. Only that I am sorry that all this 
happened.
    Mr. Schiff. That concludes my questions, and that will 
conclude our testimony for today.
    I want to thank you both for your testimony. I am sure it 
wasn't something you were looking forward to, but we appreciate 
your coming to share your experiences with us.
    Without objection, the record will remain open for 5 
legislative days for the submission of any other additional 
materials.
    This hearing of the Impeachment Task Force is now 
adjourned.
    [Whereupon, at 2:39 p.m., the Task Force was adjourned.]

                                 <all>

</pre></body></html>
